Audit Report




OIG-08-014
Audit of the Office of D.C. Pensions’ Fiscal Years 2007 and
2006 Financial Statements

December 4, 2007




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               December 4, 2007


            MEMORANDUM FOR NANCY OSTROWSKI, DIRECTOR
                           OFFICE OF D.C. PENSIONS

            FROM:                   Michael Fitzgerald /s/
                                    Director, Financial Audits

            SUBJECT:                Audit of the Office of D.C. Pensions’ Fiscal Years 2007 and
                                    2006 Financial Statements


            I am pleased to transmit the attached audited Office of D.C. Pensions (ODCP)
            financial statements for fiscal years 2007 and 2006. Under a contract monitored
            by the Office of Inspector General, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the financial statements of ODCP as of
            September 30, 2007 and 2006 and for the years then ended. The contract
            required that the audit be performed in accordance with generally accepted
            government auditing standards; applicable provisions of Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements;
            and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;

                •   no matters involving internal control and its operation that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.

            In connection with the contract, we reviewed KPMG LLP’s reports and related
            documentation and inquired of its representatives. Our review, as differentiated
            from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated October 31, 2007 and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Donna Joseph, Audit Manager, Financial Audits
at (202) 927-5784.

Attachment
 Department of the Treasury
 Office of D.C. Pensions




District of Columbia Pensions Program
Fiscal Year 2007 Annual Report
                              TABLE OF CONTENTS


PART 1        MANAGEMENT’S DISCUSSION AND ANALYSIS                        PAGE

  I.     Introduction                                                      1
  II.    Executive Summary                                                 2
  III.   Strategic Goals/Objectives                                         3
  IV.    Five-Year History of the District of Columbia Pensions Program    26
  V.     Limitation of the Financial Statements                            30
  VI.    D.C. Retirement Protection Improvement Act of 2004                30

PART 2        INDEPENDENT AUDITORS’ REPORT

         Independent Auditors’ Report                                      33
         Independent Auditors’ Report on Internal Control                  35
         Independent Auditors’ Report on Compliance and Other Matters      37

PART 3        FINANCIAL STATEMENTS AND NOTES

         Consolidated Balance Sheets                                       41
         Consolidated Statements of Net Cost                               42
         Consolidated Statements of Changes in Net Position                43
         Combined Statements of Budgetary Resources                        44
         Notes to Financial Statements                                     45

PART 4        SUPPLEMENTARY SCHEDULES

         Consolidating Balance Sheets                                      61
         Consolidating Statements of Net Cost                              62
         Consolidating Statements of Changes in Net Position               63
         Combining Statements of Budgetary Resources                       64
         Consolidating Intra-governmental Balances                         65
         Investments in GAS Securities – Net By Fund                       66
         Investments in Nonmarketable Market-Based GAS Securities – Net
              By Fund and Maturity                                         67
         Administrative Expenses – By Fund                                 68
         Pension Expense – By Fund                                         69
         Reconciliation of Net Cost of Operations to Budget                70
(This page left intentionally blank.)
 PART 1

MANAGEMENT’S DISCUSSION
     AND ANALYSIS
         MANAGEMENT'S DISCUSSION AND ANALYSIS
                  FISCAL YEAR 2007

      Mission Statement:
      The mission of the Office of D.C. Pensions is to implement the Secretary's responsibilities under
      Title XI of the Balanced Budget Act of 1997, Pub. L. 105-33 (111 Stat. 251, 712), as amended,
      by making timely and accurate federal benefit payments associated with the District of
      Columbia retirement programs for police officers and firefighters, teachers, and judges.



I.   Introduction

     A. Statutory Basis and Responsibilities
     Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act),
     the Secretary of the Treasury (the Secretary) assumed certain responsibilities for a
     specific population of annuitants under the following District of Columbia (District)
     retirement plans: the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’
     Retirement Plan and the Judges’ Retirement Plan. Specifically, the Secretary is
     responsible for administering the retirement benefits earned by District teachers, police
     officers and firefighters based upon service accrued prior to July 1, 1997, and retirement
     benefits earned by District judges, regardless of when service accrued.

     The Secretary’s responsibilities include: (1) making accurate and timely benefit
     payments; (2) investing fund assets; and (3) funding pension benefits. To carry out these
     responsibilities, the Department of the Treasury’s (Treasury) Office of D.C. Pensions (the
     Office) engages in a wide range of legal, policy and operational activities in the areas of
     benefits administration, information technology, financial management and
     administration. The Office coordinates with many District entities and stakeholders to
     administer its responsibilities.

     All benefit payments that are the responsibility of the Treasury under the District
     retirement programs are referred to herein as Federal Benefit Payments. All benefit
     payments to which an individual is entitled under the District of Columbia Replacement
     Plan (pertaining to police officers, firefighters and teachers based upon service accrued
     after June 30, 1997) are referred to as District Benefit Payments.


     B. Organizational Structure and Staffing
     The Office reports to the Deputy Assistant Secretary for Human Resources and Chief
     Human Capital Officer (DASHR). The DASHR reports to the Assistant Secretary for
     Management and Chief Financial Officer (ASM/CFO). ASM/CFO reports through the
     Deputy Secretary to the Secretary of the Treasury.




                                                    1
      The Office structure consists of three functional areas; financial management and
      administration, benefits administration, and information systems. In addition, the Office
      funds and receives support from other Treasury offices, including, in particular, the
      Office of General Counsel and the Procurement Services Division. As of
      September 30, 2007, 21 Treasury positions are funded from the District of Columbia
      Teachers, Police Officers and Firefighters Federal Pension Fund (D.C. Federal Pensions
      Fund) and the District of Columbia Judicial Retirement and Survivors Annuity Fund
      (Judicial Retirement Fund) within the below structure.


                                    OFFICE OF D.C. PENSIONS

                                               Director



             Financial Management              Benefits                         Information
              and Administration             Administration                       Systems


                                                   Treasury Support Offices: General Counsel & Procurement



      Pursuant to a reimbursable services agreement, Treasury’s Bureau of the Public Debt
      (BPD), Administrative Resource Center (ARC), performs: systems administration and
      hosting for the automated pension/payroll system, accounting, and annuity payroll
      services.

      Since September 26, 2005, the District of Columbia Retirement Board (DCRB) serves as
      the interim benefits administrator for the Police Officers’ and Firefighters’, and Teachers’
      Retirement Plans. The Office reimburses DCRB for expenses associated with
      administrating the Federal Benefit Payments. Also, as of that date, the Office assumed
      benefit administration responsibility for the Judges’ Retirement Plan.


II.   Executive Summary

      During Fiscal Year 2007, the Office of D.C. Pensions (the Office) accomplished two
      important milestones in addition to carrying out its responsibilities under provisions in
      Title XI of the Balanced Budget Act of 1997, as amended.

      First, the Office worked with the District of Columbia Retirement Board (DCRB) and
      Treasury's Bureau of the Public Debt (BPD) to complete the System to Administer
      Retirements (STAR) Release 4; this project upgraded the automated pension and payroll
      Oracle/PeopleSoft software from version 8.0 to 8.9 and developed split benefits
      functionality. As of go-live in June 2007, STAR calculates the split between federal and
      District liability for individual annuitant’s future payments. The first Split Summary
      Reimbursement Report was produced by the BPD Payroll Team.



                                               2
    Second, the last STAR Release was initiated, and the project was more than 50%
    complete by the end of the fiscal year. Deployment of the last STAR Release is planned
    during the first quarter of FY 2008. Once Release 5 is implemented, STAR will be able
    to identify the Federal and District government portions of all future annuitant payments.
    In preparation for this change, in July 2007 the DCRB began reimbursing Treasury
    monthly for an estimated District Benefit Payment instead of an annual reimbursement.
    This has set the ground work for an actual reimbursement by DCRB for District Benefit
    Payments beginning in January 2008 when the Split Summary Reimbursement Report
    will be used.

    In addition, the Office worked with the BPD IT Hosting Team to renew the STAR system
    security certification and accreditation (C&A) ensuring compliance with Federal system
    security requirements. The STAR system received the “authorization to operate” from
    the Office’s management.

    The Office provided successful stewardship of the pension funds, high quality benefit
    administration services and effective use of resources through mutually beneficial
    relationships with our partners at BPD and the District of Columbia. The Office, with
    support from the accounting team at BPD’s Administrative Resources Center (ARC),
    received an unqualified audit opinion for the ninth consecutive year.

    The Office also focused on providing information to annuitants. In partnership with
    DCRB, the Office produced an updated version of the Police Officers’ and Firefighters’
    Summary Plan Description (SPD). Other enhancements to annuitant communication will
    be introduced in FY 2008. Section III of Part 1 of this report provides information about
    these and other areas of future focus. The report also includes the Office’s strategic
    objectives and FY 2007 results.


III. Strategic Goals/Objectives

    A. Strategic Objectives and Performance Measures
    The Office of D.C. Pensions (the Office) has four Strategic Objectives that contribute to
    the achievement of two of the Department of the Treasury’s Strategic Goals.

    Treasury Strategic Goal: Effectively Managed U.S. Government Finances

    Office Strategic Objectives:
    1. Benefit payments are accurate and timely; and the use of secure electronic systems
       are optimized
    2. Pension Funds in the custody of the Treasury are effectively managed and invested




                                             3
Treasury Strategic Goal: Management and Organizational Excellence

Office Strategic Objective:
1. Organization’s mission is effectively managed
2. Annuitants received quality service

The following table displays four Office’s Strategic Objectives with a link to the two
Treasury Strategic Goals. It also identifies the Office’s measures and results.




                                         4
A. Office of D.C. Pensions (Office) Strategic Objectives and Performance Measures

Fiscal Years 2007 - 2009                                                                                                   Fiscal Year 2007
Treasury                   Treasury                   Office                   Office                       Office
Strategic Goals            Strategic Objectives       Strategic Objectives     Performance Measure          Results
Effectively Managed U.S.   Cash resources are         Benefit payments are     Percentage of monthly        STAR made 100% of the benefits payments to
Government Finances        available to operate the   accurate and timely;     benefit payments made        annuitants on time. Treasury ensured timely
                           government                 and the use of secure    to annuitants by the first   availability of funding for $504 million in
                                                      electronic systems are   business day of the          benefit payments to 13,566 annuitants and
                                                      optimized                month                        refunded contributions to 441 former active
                                                                                                            employees in FY 2007.

                                                                               Percentage of electronic The Office pays 92.4% of 13,566 annuitants by
                                                                               payments made to         direct deposit, a 0.9% increase over FY 2006.
                                                                               annuitants

                                                                               New annuitant benefit        The District’s calculation error rate identified
                                                                               calculation error rate       in the quality review process decreased to
                                                                                                            3.36% in FY 2007 from 3.54% in FY 2006.

                                                                               Secure electronic            Throughout FY 2007, STAR continued to
                                                                               pension/payroll system       provide accurate, secure and timely processing
                                                                               effectiveness                for 75 annuitants under the Judges’ Plan and
                                                                                                            13,491 annuitants under the plans for teachers,
                                                                                                            police and firefighters. The STAR Release 4
                                                                                                            project was completed, upgrading
                                                                                                            ORACLE/PeopleSoft from version 8.0 to 8.9
                                                                                                            and implementing functionality to calculate the
                                                                                                            split benefit for the Federal and District
                                                                                                            portions of an annuitant’s payment. STAR
                                                                                                            Release 5 is underway and will finish the
                                                                                                            implementation of the split benefit capability.

                                                                               Percentage of time,   STAR was available 99.93% of the time.
                                                                               excluding scheduled
                                                                               maintenance, STAR was
                                                                               available to users

                                                                       5
Fiscal Years 2007 - 2009                                                                                          Fiscal Year 2007
Treasury                   Treasury               Office                 Office                    Office
Strategic Goals            Strategic Objectives   Strategic Objectives   Performance Measure       Results
Effectively Managed        Cash resources are     Pension Funds in the   Financial Statement       KPMG LLP, an independent public
U.S. Government            available to operate   custody of the         Audit Opinion             accounting firm, rendered an unqualified
Finances (continued)       the government         Treasury are           received from an          opinion on the Office’s Financial Statements.
                           (continued)            effectively managed    independent external
                                                  and invested           auditor

                                                                         Number of open            KPMG LLP, an independent public
                                                                         financial management      accounting firm, noted no material weakness
                                                                         material weaknesses or    in the Office’s internal control over financial
                                                                         corrective actions        reporting.

                                                                         Accuracy and              The enrolled actuary, Cheiron Inc., issued a
                                                                         timeliness of actuarial   report as of October 1, 2007, providing all
                                                                         report                    information necessary to meet the
                                                                                                   requirements of the Act. The actuarial report
                                                                                                   also included the amount of the deposits to be
                                                                                                   made to the D.C. Federal Pension Fund and
                                                                                                   Judicial Retirement Fund.

                                                                         Percentage of             Of the 163 payments made during FY 2007,
                                                                         electronic vendor and     100% were paid using electronic fund
                                                                         travel payments made      transfers within 30 days of receipt.
                                                                         timely

                                                                         Amount saved by           The Office saved $69,150.13 in FY 2007 by
                                                                         utilizing early payment   meeting the early payment discount
                                                                         discount incentives       incentives.




                                                                 6
Fiscal Years 2007 - 2009                                                                                                Fiscal Year 2007
Treasury                   Treasury                   Office                 Office                     Office
Strategic Goals            Strategic Objectives       Strategic Objectives   Performance Measure        Results
Effectively Managed U.S.   Cash resources are         Pension Funds in the   Accuracy and timeliness    The Office submitted financial information
Government Finances        available to operate the   custody of the         of internal financial      timely to all required entities, closing its books
(continued)                government                 Treasury are           reports                    within three business days each month. The
                           (continued)                effectively managed                               Office’s financial approach integrates financial
                                                      and invested                                      information with its resource planning
                                                      (continued)                                       requirements and uses detailed expense reports
                                                                                                        to manage operations.

                                                                             Rate of return on          In FY 2007, the rate of return as a percentage
                                                                             investments                of par-valued investments was 4.4% for the
                                                                                                        D.C. Federal Pension Fund and 5.6% for the
                                                                                                        Judicial Retirement Fund.

                                                                             Minimum of two months In accordance with its investment guidelines,
                                                                             of available cash and the Office maintained adequate cash balances
                                                                             securities            to meet monthly obligations.

                                                                             Amount replenished to      The D.C. Federal Pension Fund received
                                                                             the D.C. Federal Pension   $857,665 through debt prevention efforts and
                                                                             and Judicial Retirement    received $104,774 through debt collection
                                                                             Fund                       efforts which totaled $962,439.

                                                                             Progress toward ending     The Office continues to do preparatory work in
                                                                             the Interim Benefits       anticipation of the final reconciliation.
                                                                             Period and planning for
                                                                             the final reconciliation




                                                                     7
Fiscal Years 2007 - 2009                                                                                               Fiscal Year 2007
Treasury                   Treasury                Office                   Office                      Office
Strategic Goals            Strategic Objectives    Strategic Objectives     Performance Measure         Results
Management and             Enabled and effective   Organization’s mission   Percentage of Office        100% of Office employees have a current
Organizational             Treasury Department     is effectively managed   employee performance        performance plan and Individual Development
Excellence                                                                  and training plans          Plan (IDP) which is consistent with Office and
                                                                            supporting individual       individual goals.
                                                                            employee and Office
                                                                            goals

                                                                            Percentage of Office        100% of the Office employees receive
                                                                            employees receiving         quarterly reviews and year end performance
                                                                            timely performance          ratings.
                                                                            reviews and feedback

                                                                            Alignment of Office         The Office continues to review its structure to
                                                                            structure to effectively    ensure an appropriate level of staffing and
                                                                            accomplish mission          focus on all areas of responsibility to support
                                                                                                        an ongoing oversight role.

                                                   Annuitants received      Percentage of surveyed      A sample of annuitants was surveyed regarding
                                                   quality service          annuitants who indicated    the patience, professionalism, knowledge,
                                                                            satisfaction with the       responsiveness and courteousness of the
                                                                            accuracy, timeliness, and   individual who provided assistance. Responses
                                                                            professionalism of          indicated that the services provided were
                                                                            service received            excellent.

                                                                            Quality and timeliness of The Office updated the Police Officers’ and
                                                                            retirement plan           Firefighters’ Summary Plan Description (SPD)
                                                                            information               for distribution in September 2007. The SPD
                                                                                                      provides up-to-date, accurate and easy to
                                                                                                      understand information about the Retirement
                                                                                                      Plan.




                                                                   8
B. Benefit payments are accurate and timely; and the use of secure
   electronic systems are optimized

1. Program Results
   a. Benefits Administration
   General Operations

   Benefits administration services were provided to 13,566 annuitants, as of
   September 30, 2007, in three District of Columbia retirement plans: the Police Officers’
   and Firefighters’ Retirement Plan, the Teachers’ Retirement Plan, and the Judges’
   Retirement Plan. The annuitant population within each plan is as follows:
   teachers, 5,852; police officers and firefighters, 7,639; and judges, 75.

                                    Judges 0.6%




                                                         Teachers 43.1%
              Police/Fire 56.3%




   In FY 2007, the average monthly payroll totaled approximately $45 million. During the
   year, all payment files were submitted on time ensuring timely payment of annuitant
   benefits. With oversight and support by the Office of D.C. Pensions (the Office), the
   District of Columbia’s Retirement Board (DCRB) performed benefits administration
   services for the Police Officers’ and Firefighters’ Retirement Plan and the Teachers’
   Retirement Plan, while the Office performed benefits administration for the Judges’
   Retirement Plan.

   General operations focus largely on transaction processing and customer service
   activities. On a monthly basis, the transaction processing activities represent a variety of
   activities from processing new retirements and/or survivor benefits, to terminating those
   no longer eligible, and to updating annuitants’ personal and benefits information.

   In FY 2007, the monthly processing in key areas included:

     New Retirements – 24 per month               New Survivors – 10 per month
     New Beneficiaries/Estates – 13 per           Qualified Domestic Relations
      month                                         Orders – less than 1 per month
     Purchases of Service – 14 per month          Refunds – 37 per month
     Direct Deposit Changes – 25 per month        Tax Changes – 88 per month



                                           9
Equally important to transaction processing is customer service. The DCRB customer
service team performed a wide range of activities, including resolving annuitant inquiries.

In FY 2007, the average monthly support from the customer service team included:

   Answering Calls – 1,381 per month
   Servicing Walk-ins – 62 per month

The Office encourages annuitants to receive benefits through direct deposit. Direct
deposit is a more convenient, secure and timely method of delivering benefits. By the
end of FY 2007, 91.3% of retired police officers and firefighters or their survivors, 93.6%
of retired teachers or their survivors, and 97.3% of retired judges or their survivors
received their monthly benefit payments by direct deposit.

                                        Percentage of Direct Deposit
                   Annuitants
                                            2007               2006
                    Police/Fire             91.3%              90.7%
                     Teachers               93.6%              93.2%
                      Judges                97.3%              94.8%

In FY 2007, a variety of outreach efforts provided accurate and timely information to
annuitants, including:

   Letters notifying annuitants when their benefits changed
   Earning Statement messages alerting annuitants to changes (such as a cost-of-living
    adjustment) or opportunities (e.g., signing up for direct deposit)
   DCRB newsletter (which provides important plan information for active and retired
    police officers, firefighters and teachers)
   Special correspondence, which provide annuitants with detailed individual
    information when a unique change has occurred (e.g., recalculations due to the
    teachers’ collective bargaining agreement)

Treasury's Bureau of the Public Debt (BPD), Administrative Resources Center (ARC)
also supports benefits administration. ARC staff members are responsible for making
benefit payments, third party reporting, debt management, and mailing services. In
FY 2007, the ARC staff made 135,332 benefit payments totaling more than $538 million
for a monthly average of nearly $45 million. In addition, ARC staff collected or resolved
approximately $1 million in debt.

Quality Review

Each month the Office performed quality assurance reviews on a statistical sample of
new retiree and survivor cases and Qualified Domestic Relation Orders (QDRO). The
Office provided appropriate feedback to the benefits administrator to ensure accuracy and
assess training needs for the staff. The error rate identified in the Office’s review process
in FY 2006 was 3.54%. In FY 2007, the error rate decreased slightly to 3.36%.


                                       10
In addition, the Office completes a review of the benefits administration support provided
by ARC. In FY 2007, all payment files were transmitted in a manner to ensure timely
benefit payments. All third-party reporting was also completed in a timely manner.

Special Projects

Collective Bargaining Agreement (Teachers)

In July 2006, the District of Columbia teachers signed a new labor agreement that was
retroactive to October 2005. The agreement was implemented for the impacted retiree
population (approximately 140 annuitants who retired after October 2005) and payments
were made in the December 1, 2006, payroll. The implementation included a retroactive
payment to all impacted annuitants, recalculation of the annuity payment for all impacted
retirees, and if an impacted annuitant was deceased, beneficiary and/or estate payments to
the designated individuals.

End User Training

During FY 2006, STAR training development and delivery was provided by the STAR
systems integration contractor as a part of the overall system development. In FY 2007,
the Office began the transition of those responsibilities to its Benefits Administration
team. To date, the team has successfully absorbed the training responsibilities for all new
employees and began supporting the development of new training materials.

b. System to Administer Retirement (STAR)

General Information

STAR is the automated pension/payroll system developed by the Office, in cooperation
with the District, to replace the District’s legacy system. STAR supports the end-to-end
business processes for retirement, streamlines the administration and payment of pension
benefits to annuitants, and enhances customer service. STAR enables pension analysts to
quickly access information and provide annuitants with real-time customer service.

STAR is based on Oracle/PeopleSoft’s off-the-shelf software for human resources,
pensions, and payroll administration. The STAR implementation has been phased and
deployed in bundles known as releases. Prior year releases include:

   Release 1 of STAR was implemented in December 2002 to serve all annuitants of the
    Judges’ Retirement Plan.
   Release 2 of STAR was implemented in September 2003 to serve teachers, police
    officers and firefighters who retired on or before June 30, 1997, and their survivors.
   Release 3 of STAR, which supported annuitants who retired on or after July 1, 1997,
    including newly retired teachers, police officers and firefighter retirees, and their
    subsequent survivors, was deployed in August 2005.




                                      11
STAR Release 4 –Implemented in June 2007

The Office and DCRB continued to develop and enhance STAR. The fourth release of
STAR was deployed in June 2007. Release 4 included an upgrade of Oracle/PeopleSoft
from 8.0 to 8.9 and development of the split benefits functionality. The split benefit
functionality enables STAR to calculate the split between federal and District liability in
individual annuity payments. Release 4 implemented Phase 1 of the split benefit
functionality, enabling calculation of the future split payments for retirements processed
in STAR on or after the Release 4 Go-Live date. Additional phases of the split benefits
functionality are addressed in STAR Release 5 (see section B.2.b).

STAR Technical Production Support and Hosting

Technical production support and hosting for STAR is performed by BPD. Since
September 2003, BPD staff members have led production support activities, including:
routine system operations, application and database administration, help desk operations
and problem resolution. In FY 2007, STAR was available to the user population 99.93%
of the time.

STAR Systems Security

In FY 2007, the STAR system renewed its security certification and accreditation (C&A)
in compliance with the Federal requirement for completing updates at least every three
years. A full security C&A was first received in January 2003 and completely updated in
August 2004 when the Office made a major change to the technical environment. The
certification is the comprehensive testing and evaluation of the management, operational,
and technical controls of an IT system. The accreditation is the official management
authorization to operate an IT system and to explicitly accept the risk to agency
operations, agency assets, or individuals based on the implementation of security
controls.

STAR Business Continuity Plan

Each year, the Office plans a test of the STAR Business Continuity Plan. The test is
designed to test the viability of the plan and the readiness of the staff to respond to an
emergency. In April 2007, the STAR system experienced an outage due to a network
hardware failure. As a result of the outage, the Office was required to execute the
Business Continuity Plan and successfully transferred processing from the primary
production site to the contingency site and back with minimal interruption to the system
users. After normal production was restored, the team captured several lessons learned
that will help to strengthen the plan. Since an event occurred during the year that
required the execution of the Business Continuity Plan, a separate exercise was not
completed.




                                      12
   Change Control Board

   The Office established the STAR Change Control Board (CCB) in FY 2002 as the
   approving authority for all system changes. The CCB evaluates the costs, benefits, and
   risks associated with any proposed change, and prioritizes the work relating to approved
   changes. The CCB process enhances accountability and internal controls. During
   FY 2007, the CCB reviewed five change requests and approved four. The CCB also
   monitors the progress of previously approved change requests to ensure that resources are
   applied to the highest priority work and that progress is acceptable. The major change
   requests approved in FY 2007 related to the split benefit capability. Other change
   requests addressed efforts such as improvements to the print quality of 1099-Rs and
   another enhanced our ability to communicate to our annuitants through the earnings
   statements.

2. Future Focus

   a. Benefits Administration

   End User Training

   In FY 2007, the Office began transitioning STAR training development and delivery
   responsibilities from the STAR systems integration contractor to its Benefits
   Administration team. In FY 2008, the transition will be completed with the Benefits
   Administration team capable of developing, delivering and maintaining the STAR
   training program and related support tools. Also in FY 2008, the Office will partner with
   DCRB to begin the design and development of a training program to address retirement
   plan knowledge as a complement to the STAR training program.

   b. System to Administer Retirement (STAR)

   STAR Release 5 – Planned Go-Live in November 2007

   The Split Benefit project to calculate and record the federal and District split for future
   benefit payments to annuitants involves three phases of work. In FY 2007, Phase 1 was
   deployed as an integral part of STAR Release 4. It enabled STAR to calculate the split
   benefits for annuitants brought into pay status beginning in June 2007. Work in FY 2008
   will focus on two remaining groups of annuitants for whom split functionality needs to be
   applied. Phase 2 of the Split Benefit project will calculate the split for future benefit
   payments to annuitants whose initial retirement processing took place in STAR between
   August 2005 and June 2007. Phase 3 will calculate the split for the future benefit
   payments to annuitants who retired after June 30, 1997, and whose initial retirement
   processing took place in the District’s legacy system, PAPS or Pension Administration
   and Payroll System. These annuitants were converted into STAR in August 2005. The
   difference between Phase 2 and 3 is that all the relevant data to calculate the split for the
   Phase 2 population is already recorded in STAR whereas an analysis of historical data is




                                          13
   needed to determine the split for the Phase 3 population. The Office plans to implement
   both Phases 2 and 3 in November 2007 as part of Release 5 deployment.

   STAR Transition

   In FY 2008, the Office will complete the development of the core STAR functionality.
   With the completion, the Office must transform from a developmental to an operational
   focus. To support this transformation, the Office planned and announced a
   reorganization in FY 2007 to align responsibilities with Service Areas. The Office will
   also need to plan and implement the STAR Transition. The STAR Transition will
   include the transfer of knowledge from the Office’s systems integrator and other contract
   partners to staff supporting benefits administration and system hosting. Key areas
   addressed in the STAR Transition are expected to be organizational and technical
   processes, training, and hardware and software transfer. The STAR Transition will be
   completed in May 2008.


C. Pension Funds in the custody of the Treasury are effectively
   managed and invested

1. Program Results

   a. Pension Funds

   The Office of D.C. Pensions (the Office) administers Federal Benefit Payments through
   two funds:

      The District of Columbia Teachers, Police Officers, and Firefighters Federal
       Pension Fund (D.C. Federal Pension Fund) makes Federal Benefit Payments and
       pays necessary administrative expenses for the Police Officers’ and Firefighters’, and
       Teachers’ Retirement Plans. The D.C. Federal Pension Fund is not a typical pension
       fund in that it does not receive employee and employer contributions. The sources of
       funding for the D.C. Federal Pension Fund are: payments from the District of
       Columbia Retirement Board (DCRB); an annual federal payment amortizing the
       unfunded liability assumed from the District and any additional liabilities; and
       interest earned on investments.

      The District of Columbia Judicial Retirement and Survivors Annuity Fund
       (Judicial Retirement Fund) accumulates funds to finance Federal Benefit Payments
       and necessary administrative expenses of the Judicial Retirement Plan. There are
       three funding sources for the Judicial Retirement Fund: employee contributions; an
       annual federal payment amortizing the unfunded liability assumed from the District
       and any additional liabilities; and interest earned on investments.




                                         14
b. Actuarial Valuation

In FY 2007, the Office contracted with Cheiron Inc., an actuarial and financial
consultancy, to perform the annual actuarial valuation as required by the Act. The
actuarial valuation is used to determine the pension liability of the retirement programs
administered by the Office.

As estimated by the actuary, as of October 1, 2007, the Federal government’s total
liability for Federal Benefit Payments under the Police Officers’ and Firefighters’, and
Teachers’ Retirement Plans is approximately $8.9 billion. Of the $8.9 billion actuarial
liability, approximately $3.8 billion is funded by existing assets of the D.C. Federal
Pension Fund and $5.1 billion is unfunded.

Cheiron Inc. determined an actuarial total liability for the Judges’ Retirement Plan as of
October 1, 2007, of $150.7 million. Of the $150.7 million actuarial liability,
approximately $121.7 million is funded by existing assets of the Judicial Retirement
Fund and $29.0 million is unfunded.

c. Receipts and Investments

The pension funds summary for FY 2007 and FY 2006 are set forth in the tables below.
Investments are valued at cost, adjusted for unamortized premiums and discounts, if
applicable. The premiums and discounts are recognized as adjustments to interest
income, utilizing the effective interest method.

     Pension Funds FY 2007 and FY 2006 Financial Highlights (in millions)
    Fund                                                   2007        2006
                 Receipts:
                  Interest                                         $ 192.4     $ 201.8
D.C. Federal      District Benefit Reimbursement from DCRB         $ 37.5      $ 22.2
Pension Fund      Deposits from General Fund                       $ 345.4     $ 285.4
                  Deposits/Contributions from Plan Participants    $   0.0     $   0.0
                 Net Investments                                   $3,701.1    $3,707.8
                 Receipts:
                  Interest                                         $     6.3   $    6.0
   Judicial       District Benefit Reimbursement from DCRB         $     0.0   $    0.0
  Retirement      Deposits from General Fund                       $     7.4   $    7.4
    Fund          Deposits/Contributions from Plan Participants    $     0.7   $    0.7
                 Net Investments                                   $ 120.2     $ 113.9
                 Receipts:
                  Interest                                         $ 198.7     $ 207.8
                  District Benefit Reimbursement from DCRB         $ 37.5      $ 22.2
    Totals        Deposits from General Fund                       $ 352.8     $ 292.8
                  Deposits/Contributions from Plan Participants    $   0.7     $   0.7
                 Net Investments                                   $3,821.3    $3,821.7


                                       15
Treasury Securities

Each fund is invested in non-marketable Treasury securities, as required by law. The
Bureau of the Public Debt (BPD) invests the assets of the pension funds based on
investment guidance from the Office. The Office follows a “ladder” approach,
scheduling maturities in amounts sufficient to meet the obligations projected by annual
actuarial valuations. Investment policy in the pension funds strikes a balance between
ensuring the Office can meet short-term obligations, and extending the ladder. In
FY 2007, the cash balance available for contingencies was targeted not to fall below
approximately two months of obligations ($96 million). The Office invested cash
balances in one-day certificates, except for an un-invested balance of $250,000 at month
end, to cover unanticipated withdrawals on the last day of the month.

Deposits (Warrants, Interest, District Benefit Reimbursements and Judges’ Employee
Contributions)

Warrants

As required by the Act, Treasury makes annual payments from the General Fund of the
Treasury to the Judicial Retirement Fund and the D.C. Federal Pension Fund to amortize
the original unfunded liabilities of the retirement programs assumed by the Federal
government over 30 years, the net experience gains or losses over 10 years, and any
changes in actuarial liabilities over 20 years; and for amounts necessary to fund covered
administrative expenses for the year. The annual payment to the Judicial Retirement
Fund also includes an amount necessary to fund the normal cost of the retirement
program. Consistent with the Act, these deposits are made in September each year and
are invested in non-marketable Treasury securities with maturities consistent with the
expected payment dates of the pension liabilities. In FY 2007, $345.4 million was
deposited into the D.C. Federal Pension Fund and $7.4 million into the Judicial
Retirement Fund. In FY 2006, $285.4 million was deposited into the D.C. Federal
Pensions Fund and $7.4 million was deposited into the Judicial Retirement Fund.

Interest

In FY 2007, the Office received $192.4 million of interest ($153 million earned) in the
D.C. Federal Pension Fund and $6.3 million ($6.2 million earned) in the Judicial
Retirement Fund. The rate of return in FY 2007 for the Office’s pension funds was 4.4%
for the D.C. Federal Pension Fund and 5.6% for the Judicial Retirement Fund. In
FY 2006, the Office earned interest of $201.8 million ($156.8 million earned) in the
D.C. Federal Pension Fund and $6.0 million ($5.9 million earned) in the Judicial
Retirement Fund. The rate of return in FY 2006 for the Office’s pension funds was 4.5%
for the D.C. Federal Pension Fund and 5.7% for the Judicial Retirement Fund. The rate
of return is calculated by dividing interest earned from Government Account Series
(GAS) securities by the average par value of Investments in GAS securities. Interest
earned from GAS securities includes the amortization of premiums and discounts.




                                      16
District Benefit Reimbursements

Treasury initially funds all benefit payments under the Police Officers’ and Firefighters’,
and Teachers’ Retirement Plans. Until July 1, 2007, the District only reimbursed the
D.C. Federal Pension Fund annually for estimated District Benefit Payments made by
Treasury for the prior fiscal year. In January 2007, DCRB reimbursed Treasury
$28.6 million for estimated District Benefit Payments made in FY 2006 by Treasury on
the District’s behalf.

On July 1, 2007, the DCRB began reimbursing Treasury approximately $3.0 million
monthly for estimated District Benefit Payments made by Treasury on the District’s
behalf. At this time, based on an actuarial valuation as of October 1, 2006, the DCRB
actuary estimates the FY 2007 District Benefit Payments made by Treasury on the
District’s behalf will be $35.7 million and the January 2008 reimbursement will be
$23.8 million. The estimate of $23.8 million is calculated by subtracting the monthly
reimbursements already made by DCRB for FY 2007, which totaled $11.9 million, from
the estimate of District Benefit Payments made by Treasury on the District’s behalf for
FY 2007, which is $35.7 million. However, the actual amount of the January 2008
reimbursement will be based on the DCRB actuarial valuation as of October 1, 2007.

Judges’ Employee Contributions

Active judges are required to contribute 3.5% of salary to the Judicial Retirement Fund to
pay for part of the cost of their retirement benefits. Active judges who elect a survivor
annuity contribute an additional 3.5% of salary. Active judges’ contributions to the
retirement fund in FY 2007 totaled approximately $576,000. Retired judges who elected
a survivor annuity are required to contribute 3.5% of retirement salary. In FY 2007,
retired judges contributed approximately $156,000 to the retirement fund. In FY 2006,
active judges’ contributions to the retirement fund totaled $590,000. Retired judges
contributed approximately $126,000 to the retirement fund in FY 2006.

d. Collections

Refund Reconciliation Project

The First Amended Memorandum of Understanding (MOU), dated September 28, 2000,
required Treasury to pay the total amount of refunds of employee contributions during
the interim benefits period. On February 1, 2005, Treasury entered into a MOU with the
DCRB and the District of Columbia’s Office of Pay and Retirement Services (OPRS)
concerning refunds of employee contributions under the Police Officers’ and
Firefighters’, and Teachers’ Retirement Plans. In addition to agreeing to fund amounts
paid on and after February 1, 2005 in accordance with the respective statutory
responsibilities (i.e., refunds of contributions deducted from employee salary on or before
June 30, 1997, are a federal liability and refunds of contributions deducted after
June 30, 1997, are a District liability) the District also agreed to reimburse Treasury for
that portion of refunds paid by Treasury prior to February 1, 2005 that represents



                                       17
contributions deducted and withheld from an employee’s salary or deposits after
June 30, 1997. In FY 2005, the Office began reconciling all refunds made prior to
February 1, 2005 resulting in the District reimbursement of $9.3 million for FY 2003
through February 2005. In FY 2006, the District paid Treasury $6 million for its share of
the refunds paid from FY 2001 and FY 2002. In FY 2007, FY 2000 refund cases were
reconciled and the Office established a $1.6 million receivable for FY 2000 refunds, and
a receivable of $1 million for FY 1997 through FY 1999. The table below summarizes
the Treasury and District share of the refunds.


                            Refund Reconciliation Project (in millions)
                2005*      2004       2003        2002    2001     2000**      1999**      1998-97**
  Treasury       $0.5       $1.8      $1.2        $2.7     $2.3      $2.9       $3.7        $5.6
  District       $1.4       $4.7      $3.2        $3.7     $2.3      $1.6       $0.8        $0.2
   Total
                 $1.9      $6.5       $4.4        $6.4     $4.6      $4.5       $4.5        $5.8
  Refunds
*Fiscal year 2005 includes refunds paid from October 1, 2004, through February 15, 2005.
** Fiscal Years 1997 through 2000 are estimates.

Debt Collection

During FY 2007, the Office pursued debt prevention and collection efforts working with
the annuity payroll team at the Treasury’s Bureau of the Public Debt (BPD),
Administrative Resource Center (ARC), which manages the debt collection process for
the Office. In FY 2007, debt prevention efforts ensured that a total of $857,665 was
immediately recovered upon timely notification of an annuitant’s death or in cases of
payment errors. Through debt collection efforts $104,774 was collected through offsets,
lump sum payments or installment payments.

During January 2007, the Office kicked off an effort to review its debt management
practices. Representatives from ODCP, General Counsel and the BPD Payroll Team
reviewed the current policies and procedures. Once this effort is complete, the Office
will publish updated regulations.

In FY 2006, debt prevention efforts ensured that a total of $880,595 was immediately
recovered upon timely notification of an annuitant’s death or in cases of payment errors.
Through debt collection efforts $134,295 was collected through offsets, lump sum
payments or installment payments.

e. Financial Operations

Oracle Federal Financials (ORACLE)

Pursuant to a reimbursable services agreement ARC performs accounting services using
Oracle Federal Financial (ORACLE) for the Office. ORACLE is a core financial
management product used to process all financial transactions. The Office’s transactions



                                             18
are entered into ORACLE both manually and via custom interfaces from ancillary
systems. PRISM and GovTrip are feeder systems the Office uses that interface with
ORACLE. ARC provides a report writer package called Discoverer which allows the
Office to create various accounting reports.

3-Day Close

Since April 2001, the Office has closed its books each month within three working days.
The Office has been rated green (the highest rating) since February 2002 for all data
quality checks on the monthly data quality scorecard maintained by Treasury’s Office of
Accounting and Internal Control.

Prompt Payment and Vendor Payment Discounts

The Office paid 100% of the 112 invoices received within the timeframes required by the
Prompt Payment Act. The Office’s systems integration contractor offers an early
payment discount as an incentive to make payments in less than the 30 days prescribed in
the Prompt Payment Act. The discounts are 1% for payment within 10 days of the
invoice date and 1/2% for payment within 20 days of the invoice date. As a result, the
Office saved $69,150.13 in FY 2007 by making payments within
10 days of the invoice date. In FY 2006, the Office saved $61,961 by making payments
within 10 days of the invoice date.

Electronic Payments

For reasons of reliability and security, Treasury's Fiscal Assistant Secretary and the
Financial Management Service encourage Federal agencies to use electronic payments.
In FY 2007, the Office paid 100% of the 163 payments, which include invoices and
travel reimbursements, by electronic funds transfer. Of the 163 payments, 73% were by
EFT and 27% by credit card. In FY 2006, of the 138 electronic payments made, 80%
were EFT and 20% were made by credit card.

Administrative Expenses

The Office funds all administrative expenses to support the federal responsibilities under
the retirement programs under the Act from the D.C. Federal Pension Fund and the
Judicial Retirement Fund. When administrative expenses related to activities that benefit
all of the retirement programs occur, expenses are usually allocated 99% to the
D.C. Federal Pension Fund and 1% to the Judicial Retirement Fund. When expenses
benefit only one group or the other, or when a different allocation is clearly appropriate,
expenses are charged accordingly.

In FY 2007, administrative expenses were approximately $14.6 million for the
D.C. Federal Pension Fund and $1.1 million for the Judicial Retirement Fund, for a total
of $15.7 million. In FY 2006, administrative expenses were approximately $17.2 million
for the D.C. Federal Pension Fund and $1.2 million for the Judicial Retirement Fund, for



                                      19
a total of $18.4 million. Administrative expenses in FY 2007, as compared to FY 2006,
decreased by $2.7 million primarily due to a decrease in contractual costs.


         Administrative Expenses FY 2007 and FY 2006 (in millions)
              Fund                2007       2006        Difference
      D.C. Federal Pension Fund       $14.6        $17.2          $(2.6)
       Judicial Retirement Fund       $ 1.1        $ 1.2          $(0.1)
                 Total                $15.7        $18.4          $(2.7)

The major administrative expenses resulted from reimbursement of DCRB benefit
administration and support function expenses, Treasury staff salaries and benefits, and
contractors engaged by the Office to provide IT systems development. Certain costs of
the System to Administer Retirement (STAR) pension/payroll system for hardware,
software, and system development were capitalized as equipment and internal use
software. The Office has been amortizing – since January 2003 in the Judicial
Retirement Fund and since September 2003 in the D.C. Federal Pension Fund – direct
costs incurred to develop STAR. Capitalized costs in the D.C. Federal Pension Fund and
Judicial Retirement Fund will be amortized monthly on a five-year schedule.

Expense Reimbursement

The Office and the DCRB have developed a methodology for allocating costs incurred by
both entities in administering District and Federal Benefit Payments. The methodology
includes consideration of: (1) the number of active employees, 100% federal annuitants,
100% District annuitants, and split annuitants; (2) the estimated DCRB resources needed
to support these populations; and (3) the number of employees throughout DCRB who
are dedicated to supporting the benefits administration function. Applying this
methodology, the Office and the DCRB entered into a cost sharing agreement for
reimbursement of FY 2007 actual expenses. Pursuant to the agreement, Treasury will
reimburse the DCRB approximately $2.2 million for FY 2007 expenses in administering
Federal Benefit Payments. DCRB in turn will reimburse the Office approximately
$2.3 million for the Office’s expenses in developing and operating STAR to administer
District Benefit Payments. In FY 2006, Treasury reimbursed DCRB $2.0 million for
agreed upon administrative expenses, while DCRB reimbursed Treasury $1.8 million for
administrative costs associated to STAR.

f. Financial Statement Audit Opinion

KPMG LLP (KPMG), an independent public accounting firm, rendered an unqualified
opinion on the Office’s FY 2007 financial statements. This is the ninth consecutive year
that the Office’s financial statements have received an unqualified opinion.




                                     20
   KPMG noted no material weaknesses in the Office of D.C. Pensions internal control over
   financial reporting. Also, the results of KPMG’S tests of compliance with laws and
   regulations disclosed no instances of noncompliance or other matters that require
   reporting under Government Auditing Standards or OMB Bulletin No. 07-04.

   g. Internal Control over Financial Reporting

   The Office used the FY 2007 Guidance and Implementation Plan provided by Treasury’s
   Office of the Deputy Chief Financial Officer to conduct a review of internal controls over
   financial reporting as required by OMB Circular A-123, Management’s Responsibility
   for Internal Controls, Appendix A, Internal Control Over Financial Reporting. ARC staff
   members and the Office conducted tests by either inspection or use of the ARC SAS 70
   review.

   The Office conducted its assessment of the effectiveness of internal controls over
   financial reporting, which included safeguarding of assets and compliance with
   applicable laws and regulations, in accordance with the requirements of Appendix A of
   OMB Circular A-123. Based on the results of this evaluation, the Office provided
   reasonable assurance that its internal controls over financial reporting were operating
   effectively and no maternal weaknesses were found in the design or operation of the
   internal controls over financial reporting. The scope of the assessment was limited to the
   Treasury-designated material consolidated financial statement lines identified in
   Treasury’s guidance and internal financial reports produced for the Office. The Office
   provided a compliance statement reflecting an unqualified assurance as of June 30, 2007.

2. Future Focus

   a. Split Benefit Calculation

   Beginning in November 2007, Release 5 functionality will enable STAR to calculate the
   split for future payments to all annuitants in pay status as of that date. This will enable
   STAR to appropriately allocate and record the portion of an annuitant’s benefit which is
   the Federal government’s responsibility and the District’s responsibility. The Office has
   developed new split monthly reports that identify at the annuitant level the Federal and
   District portions of the total annuity paid each month.

   b. Monthly District Benefit Payments

   In November and December 2007, the DCRB will reimburse Treasury for District
   Benefit Payments earned in the previous month. Each of the two monthly
   reimbursements will be 1/12 of the estimated District liability for FY 2008, as determined
   by the DCRB actuary. The November and December 2007 payments are subject to final
   reconciliation in accordance with the Interim Benefits MOU.




                                          21
   Starting in January 2008, monthly DCRB reimbursements will be made based on the
   actual calculation of the District Liability. The STAR Split Reimbursement Summary
   Report will support the actual District reimbursements made to Treasury each month.

   c. End Interim Benefit Period/Final Reconciliation

   Title XI of the Balanced Budget Act of 1997, as amended, states that the interim benefits
   period began on October 1, 1997, and ends on the date Treasury notifies the District that
   a trustee or Treasury will assume the duties of benefits administrator. With respect to the
   retirement plans for teachers, police officers and firefighters, Treasury will not end the
   interim benefits period until STAR is enhanced to calculate the split between federal and
   District liability for post-June 30, 1997 retirees and their survivors.

   In November 2007, after the STAR project to calculate split benefits has been
   implemented, the Office will then work with the District to conduct the final
   reconciliation, accounting for transactions during the interim benefit period. The final
   reconciliation will include, among other things, an accounting of the amounts related to
   Federal and District responsibilities for benefits paid to plan members who retired after
   June 30, 1997.

   Per the Interim Benefits MOU between Treasury and the District, the major requirements
   for the final reconciliation are that: (1) the District and DCRB provide audited reports of
   their transactions affecting the retirement funds during the interim benefits period; and
   (2) the Treasury calculates split benefit payments for plan members who retired during
   the interim benefits period and reconciles these payments with amounts actually paid by
   the District to Treasury during the interim benefits period. The final reconciliation will
   identify amounts owed to Treasury by the District and vice-versa.


D. Organization’s mission is effectively managed

1. Program Results

   a. Employee Performance and Training

   The Office of D.C. Pensions (the Office) managers worked with each employee to
   achieve the Office’s and individual goals through frequent performance feedback,
   training and development. Management conducts quarterly performance reviews with
   each employee. Each employee has an Individual Development Plan, which is monitored
   throughout the year. All employees participate in required and optional training.
   Opportunities for employee development play an important role in decisions on
   allocation of work assignments.




                                         22
   b. Office of D.C. Pensions Performance Reporting

   In FY 2007, the Office revised its approach for reporting on performance and moved
   from a single report to two reports; one distributed by the Office and the other distributed
   by the Benefits Administrator. The Office’s report presents findings, analysis and
   recommended actions with regard to both the services provided by the Office and the
   quality assurance activities completed for the services provided to the Office. The report
   presents these findings in each of the Office’s four primary performance areas: benefits
   administration, financial management, information services and program management.
   The Office’s report is distributed on a quarterly basis. See below for a discussion of the
   Benefits Administrator’s Performance Report.

   c. Organizational Structure

   As significant milestones in the System to Administer Retirement (STAR) development
   are nearing completion and as the functions performed by the District of Columbia
   Retirement Board (DCRB) are maturing, the Office is focused on an evolving operational
   and oversight role. To reflect the changing needs of the organization as it transitions
   from a development to an operational focus, the Office planned for and announced a
   reorganization in FY 2007. The reorganization focusing on Service Areas will be phased
   in and completely transitioned by January 2008.

2. Future Focus

   a. Expanded Oversight of Benefits Administration Activities

   As DCRB continues to mature and expand in its role as the Benefits Administrator, the
   Office will expand and enhance its oversight and quality assurance program. The focus
   will continue to be on customer service and benefits processing.

   b. Improved Employee Performance Management System

   In FY 2008, the Office will utilize the new Employee Performance Management System
   implemented by Departmental Offices. The new performance system leverages
   improvements, such as using performance commitments that are job specific and results
   oriented, already adopted by the Office. It also introduces a new concept, weighting, to
   allow varying importance to be placed on the performance commitments. The new
   performance system is expected to increase emphasis on accountability, allow for more
   meaningful distinctions in performance levels, focus more on results, and align
   performance plans with organizational goals.

   c. Organizational Structure

   At the end of FY 2007, the Office announced a reorganization that will be implemented
   gradually with the transition completed by January 2008. The new organizational
   structure is more streamlined than the current organization, reducing the number of


                                          23
   Assistant Directors reporting to the Director from three to two. The new organization
   also focuses the work into Service Areas. The Service Areas are designed to clarify
   points of contact with the Office’s key partners, emphasize the Office’s key operational
   areas, and highlight key functions to include quality assurance and special projects.


E. Annuitants received quality service
1. Program Results

   a. District of Columbia Retirement Board Performance Report

   In FY 2007, the District of Columbia Retirement Board (DCRB) began producing its own
   benefits administration performance reports. The DCRB Performance Report
   complements the Office of D.C. Pensions’ (the Office) Performance Report noted above.
   The DCRB report tracks two primary areas, benefits administration and customer service.
   The DCRB report focuses on the performance indicators adopted in FY 2006 that reflect
   a balance between accuracy, timeliness, quality, and cost effectiveness. The report is
   distributed on a quarterly basis.

   b. Annuitant Satisfaction

   DCRB uses two tools to help track and monitor call volume. The monitoring system
   tracks the volume of calls and the availability of the representatives to answer the calls.
   Complementing the call monitoring system is a call tracking system that captures more
   specific information related to each call and caller.

   Annuitant outreach via a survey vehicle increased this year as compared to last year. The
   annuitant survey form asks members to rate the patience, professionalism, knowledge,
   responsiveness, and courteousness of the person with whom the annuitant spoke. In
   addition, it asks how satisfied the caller was with the process, their overall experience
   with the Member Services Center, their wait time, and their perception of customer
   service representative’s ability to understand their issue and help them. Ratings range
   from 1 (excellent) to 5 (poor). Responses from the annuitants surveyed, indicated that the
   services provided were excellent.

   c. Benefits Administration Service Level Agreement

   In FY 2007, the Office and DCRB signed a service level agreement (SLA) for the
   benefits administration arena. The SLA defines the responsibilities of the DCRB
   Benefits Department and the Office in providing a high level of service to its partners,
   supporting organizations and annuitants. The SLA emphasizes results from the
   customers’ perspective and performance criteria are focused accordingly. Focus is placed
   on the entire benefits administration spectrum of activities from processing to customer
   service and quality review. The SLA was effective for the fourth quarter of FY 2007 and
   will serve as a model for the FY 2008 agreement.



                                          24
   d. Retirement Plan Information

   Police Officers’ and Firefighters’ Summary Plan Description (SPD)

   In FY 2007, an updated SPD of the District of Columbia Police Officers' and Firefighters'
   Retirement Plan (Plan) was published. The updated SPD was mailed to approximately
   14,000 Plan members (active personnel and retirees) and their survivors. This project
   was led by the Office and was produced in partnership with the District. The updated
   SPD includes information on statutory changes to the plan and changes to regulations.

2. Future Focus

   a. 1099-R Print Quality Improvements

   Over the last two years, the print quality of the 1099-Rs issued to the annuitants has
   deteriorated and the number of complaints regarding the 1099-Rs increased. In response
   to the issue, the Office, in partnership with DCRB and BPD, researched the problems,
   identified options to improve the process and approved a change request. The new and
   improved 1099-Rs will be provided to annuitants as a part of the 2007 year end cycle.

   b. Earnings Statement Improvements

   In FY 2008, the Office plans to implement annuitant friendly improvements to the
   earnings statement. The new statements will eliminate redundant information, increase
   the font size of the text, and expand the space available for messages to annuitants.
   Along with these improvements, the Office anticipates an annual savings of
   approximately $31,000.

   c. Retirement Plan Information

   Teachers’ Summary Plan Description (SPD)

   Work began on the update to the SPD for the District of Columbia Police Teachers’
   Retirement Plan in FY 2007. The SPD is designed to provide plan members with
   accurate and easy to understand information about the Retirement Plan. DCRB led this
   effort, with input and coordination provided with the Office and several other District
   stakeholders.

   Judges’ Summary Plan Description (SPD)

   The Office began to update the SPD for the District of Columbia Judges’ Retirement
   Plan. The SPD is designed to provide plan members with accurate and easy to
   understand information about the Retirement Plan. The Office led this effort, with input
   and coordination provided by other District stakeholders.




                                        25
IV. Five-Year History of the District of Columbia Pensions Program

   A. Annuitants (as of September 30, 2007)

                                           Police Officers’ and Firefighters’,
                                           and Teachers’ Retirement Plans’

                  16
                                                                                  Police/Fire
                                                                                  Teachers
                  14

                           7,792   7,673       7,639     7,646        7,639
                  12


                  10
      Thousands




                   8
                                                                                 Pension Population
                                                                                  Year   Annuitants
                   6                                                              2003     13,309
                                               5,827     5,805        5,852       2004     13,170
                           5,517   5,497                                          2005     13,466
                   4                                                              2006     13,451
                                                                                  2007     13,491

                   2


                   0
                           2003    2004        2005       2006        2007




                                            Judges’ Retirement Plan
                  80

                  70
                                                             77         75
                                      69         73
                  60         66

                  50

                  40

                  30

                  20

                  10

                       0
                            2003    2004        2005         2006      2007




                                                        26
B. Investments (as of September 30, 2007)

                                         Supplemental, Trust and D.C. Federal Pension Funds’
                                                          Net Investments
              $4




                                                                           3.762




                                                                                          3.708




                                                                                                         3.701
              $3
                                                                                                                 All funds are
                                                                                                                 invested in non-
                                                                                                                 marketable
   Billions




                                                                                                                 Treasury
              $2
                                 2.107



                                             2.087
                                                                                                                 securities. The
                                                                                                                 Supplemental
                        1.738




                                                      1.717
                                                                                                                 and Trust funds
                                                                                                                 assets as of
                                                                                                                 October 1,
              $1                                                                                                 2004, were
                                                                                                                 combined to
                                                                                                                 create the D.C.
                                                                                                                 Federal Pension
                                                                                                                 Fund.
              $0
                                2003                 2004           2005           2006           2007

                            Supplemental Fund                 Trust Fund      D.C. Federal Pension Fund




                                                              Judicial Retirement Fund
                                                                  Net Investments
              $140

              $120
                                                                                                   120.2
                                                                                    113.9
              $100                                                  107.4
                                                     101.9                                                           All funds are
                                  95.8                                                                               invested in non-
                                                                                                                     marketable Treasury
  Millions




               $80
                                                                                                                     securities. The fund
                                                                                                                     has grown each year
               $60                                                                                                   as contributions and
                                                                                                                     earnings exceed
                                                                                                                     benefit payments and
                                                                                                                     administrative
               $40
                                                                                                                     expenses.


               $20

                   $0
                                   2003                 2004          2005           2006          2007




                                                                      27
                 B. Investments (as of September 30, 2007) continued


                                                            Investment Average Annual
                                                                  Rate of Return*
                          6%




                                                             5.4
                          5%
                               5.1




                                                                   4.9
                                       4.9




                                                                                                          4.7

                                                                                                                4.5

                                                                                                                      4.4
                          4%
Rate of Return




                                                                                                                                        2003
                                                                                                                                        2004
                          3%                                                                                                            2005
                                                                                                                                        2006
                          2%                                                                                                            2007


                          1%


                          0%
                                     Supplemental Fund               Trus t Fund               D.C. Federal Pens ion
                                                                                                      Fund**

                 *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
                 average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
                 premiums and discounts.
                 **The Supplemental Fund and the Trust Fund were combined October 1, 2004, to create the D.C. Federal Pension Fund.




                                                                Investment Average Annual
                                                                      Rate of Return*
                          7%


                          6%
                                             5.9         5.7                             5.7
                                                                         5.7                             5.6
          Rateof Return




                                                                                                                                        2003
                          4%                                                                                                            2004
                                                                                                                                        2005
                                                                                                                                        2006
                          3%
                                                                                                                                        2007

                          1%


                          0%
                                                         Judicial Retirement Fund

                     *The Rate of Return is calculated by dividing interest earned from Government Account Series (GAS) securities by the
                     average par value of investments in GAS securities. Interest earned from GAS securities includes the amortization of
                     premiums and discounts.




                                                                              28
           C. Expenses by Category (as of September 30, 2007)

                                  Benefits, Refunds, and Administrative Expenses

            $600


            $500


            $400
                                                                                                Benefits &
Millions




                                                                                                Refunds
            $300                                                                                Administrative
                                                                                                Expenses*
            $200


            $100


              $0
                       2003        2004          2005            2006       2007
     *Administrative expenses include reimbursement of the District administrative expenses,
     ODCP salaries and contractor support.




                              Benefits, Refunds, and Administrative Expenses


                   Fiscal
                                 Benefits/         Administration        Benefits and      Administrative
                   Year                              Expenses*                              Expenses %
                               Refunds Paid                              Refunds %

                   2003           $455M                 $19M                 96%                 4%


                   2004           $462M                 $20M                 96%                 4%


                   2005           $464M                 $19.5M               96%                 4%


                   2006           $494M                 $18.4M               96%                 4%


                   2007           $504M                 $15.7M               97%                 3%




             *Administrative expenses include reimbursement of the District administrative expenses,
             ODCP salaries and contractor support.




                                                           29
V. Limitation of the Financial Statements

   The principal financial statements have been prepared to report the financial position and
   results of operations of the Office of D.C. Pensions (the Office), pursuant to the requirements
   of the 31 U.S.C. 3515(b).

   While the statements have been prepared from the books and records of the Office in
   accordance with U.S. generally accepted accounting principles for Federal entities and the
   formats prescribed by the Office of Management and Budget, the statements are in addition
   to the financial reports used to monitor and control budgetary resources which are prepared
   from the same books and records.

   The statements should be read with the realization that they are for a component of the
   U.S. Government, a sovereign entity.


VI. D.C. Retirement Protection Improvement Act of 2004

   Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004,
   Pub. L. 108-489, Treasury established the District of Columbia Teachers, Police Officers,
   and Firefighters Federal Pension Fund (D.C. Federal Pension Fund) and merged the assets of
   the D.C. Federal Pension Liability Trust Fund (the Trust Fund) and Federal Supplemental
   District of Columbia Pension Fund (the Supplemental Fund) into the new fund. The budget
   authority of the Trust Fund and the Supplemental Fund was transferred to the D.C. Federal
   Pension Fund.




                                             30
PART 2

 INDEPENDENT AUDITORS’
        REPORT




           31
32
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                               Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury’s
Office of D.C. Pensions (ODCP) as of September 30, 2007 and 2006, and the related consolidated
statements of net cost, changes in net position, and combined statements of budgetary resources
(hereinafter referred to as “consolidated financial statements”) for the years then ended. These
consolidated financial statements are the responsibility of the ODCP’s management. Our responsibility is
to express an opinion on these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the ODCP’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated financial
statements, assessing the accounting principles used and significant estimates made by management, as
well as evaluating the overall consolidated financial statement presentation. We believe that our audits
provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of the U.S. Department of the Treasury’s Office of D.C. Pensions as of
September 30, 2007 and 2006, and its net costs, changes in net position, and budgetary resources for the
years then ended in conformity with U.S. generally accepted accounting principles.

As discussed in Note 2, in fiscal year 2007, the ODCP changed its method of reporting the reconciliation of
budgetary resources obligated to the net cost of operations in accordance with the OMB Circular No. 136,
Financial Reporting Requirements.

The information in Management’s Discussion and Analysis, is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles and OMB Circular No. A-136, Financial Reporting Requirements. We have applied certain
limited procedures, which consisted principally of inquiries of management regarding the methods of
measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.




                                                                           33
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
Our audits were conducted for the purpose of forming an opinion on the consolidated financial statements
taken as a whole. The information in Part 4, Supplementary Schedules, is presented for purposes of
additional analysis and is not a required part of the basic financial statements. The September 30, 2007
supplementary schedules referred to above have been subjected to the auditing procedures applied in the
audits of the consolidated financial statements and, in our opinion, are fairly stated, in all material respects,
in relation to the consolidated financial statements taken as a whole.

In accordance with Government Auditing Standards, we have also issued our reports dated October 31,
2007, on our consideration of the ODCP’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, and contracts, and other matters. The purpose of
those reports is to describe the scope of our testing of internal control over financial reporting and
compliance and the results of that testing, and not to provide an opinion on the internal control over
financial reporting or on compliance. Those reports are an integral part of an audit performed in
accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




October 31, 2007




                                                       34
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                            Independent Auditors’ Report on Internal Control


Inspector General, U.S. Department of the Treasury, and
Director, Office of D.C. Pensions:

We have audited the consolidated balance sheets of the U.S. Department of the Treasury’s Office of D.C.
Pensions (ODCP) as of September 30, 2007 and 2006 and the related consolidated statements of net cost,
changes in net position, and combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
October 31, 2007. That report noted that ODCP implemented a change in reporting.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin
No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of the ODCP is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2007 audit, we considered the ODCP’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of ODCP’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the consolidated financial statements. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards and OMB Bulletin
No. 07-04. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an
opinion on the effectiveness of the ODCP’s internal control over financial reporting. Accordingly, we do
not express an opinion on the effectiveness of the ODCP’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the ODCP’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the ODCP’s consolidated financial statements that is more than
inconsequential will not be prevented or detected by the ODCP’s internal control over financial reporting.
A material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the consolidated financial statements will not
be prevented or detected by the ODCP’s internal control.



                                                                         35
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
In our fiscal year 2007 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.

INTERNAL CONTROL OVER PERFORMANCE MEASURES

As required by OMB Bulletin No. 07-04, in our fiscal year 2007 audit, with respect to internal control
related to performance measures determined by management to be key and reported in Management’s
Discussion and Analysis, we obtained an understanding of the design of internal controls relating to the
existence and completeness assertions and determined whether these internal controls had been placed in
operation. We limited our testing to those controls necessary to report deficiencies in the design of internal
control over key performance measures in accordance with OMB Bulletin No. 07-04. However, our
procedures were not designed to provide an opinion on internal control over reported performance
measures and, accordingly, we do not provide an opinion thereon. In our fiscal year 2007 audit, we noted
no deficiencies involving the design of the internal control over the existence and completeness assertions
related to key performance measures.

This report is intended solely for the information and use of the ODCP’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




October 31, 2007




                                                     36
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                     Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury, and
Director, Office D.C. Pensions:

We have audited the consolidated balance sheets of the U.S. Department of the Treasury’s Office of D.C.
Pensions (ODCP) as of September 30, 2007 and 2006, and the related consolidated statements of net cost,
changes in net position, and combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
October 31, 2007. That report noted that ODCP implemented a change in reporting.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No.
07-04 require that we plan and perform the audit to obtain reasonable assurance about whether the
consolidated financial statements are free of material misstatement.

The management of the ODCP is responsible for complying with laws, regulations and contracts applicable
to the ODCP. As part of obtaining reasonable assurance about whether the ODCP’s consolidated financial
statements are free of material misstatement, we performed tests of the ODCP’s compliance with certain
provisions of laws, regulations and contracts, noncompliance with which could have a direct and material
effect on the determination of the consolidated financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04, including certain provisions referred to in the
Federal Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to
the provisions described in the preceding sentence, and we did not test compliance with all laws,
regulations and contracts applicable to the ODCP. However, providing an opinion on compliance with
those provisions was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of those
referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to be
reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

Under OMB Bulletin No. 07-04 and FFMIA, we are required to report whether the ODCP’s financial
management systems substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level. To meet this requirement, we performed tests of compliance with FFMIA
Section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which the ODCP’s financial management
systems did not substantially comply with the three requirements discussed in the preceding paragraph.




                                                                          37
                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of the ODCP’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




October 31, 2007




                                                  38
PART 3

 FINANCIAL STATEMENTS
      AND NOTES




          39
40
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Balance Sheets
As of September 30, 2007 and 2006
(in thousands)

                                                                       2007              2006



Assets
      Entity Assets
            Intra-Governmental Assets
                  Fund Balance with Treasury (Note 3)             $           254    $         255
                  Investments in GAS Securities, Net (Note 4)           3,821,315        3,821,637
                  Interest Receivable from GAS Securities                  34,123           40,020
                  Advances to Others                                           72               40
            Accounts Receivable, Net                                       30,860           31,569
            Software-In-Development                                         1,797            5,146
            ADP Software, Net (Note 5)                                     12,073           11,473
            Equipment, Net (Note 6)                                            73              151
Total Assets                                                      $     3,900,567    $   3,910,291

Liabilities
       Liabilities Covered By Budgetary Resources
              Intra-Governmental
                    Accounts Payable                              $            32    $          68
                    Accrued Payroll and Benefits                               17               16
              Accounts Payable                                              4,493            6,767
              Accrued Pension Benefits Payable                             45,296           44,288
              Actuarial Pension Liability (Note 2j)                     3,679,487        3,645,440
              Accrued Payroll and Benefits                                    194              179
       Total Liabilities Covered By Budgetary Resources                 3,729,519        3,696,758

      Liabilities Not Covered By Budgetary Resources
             Actuarial Pension Liability                                5,312,562        5,422,271
Total Liabilities                                                       9,042,081        9,119,029

Net Position
      Cumulative Results of Operations - Earmarked                     (5,141,514)       (5,208,738)
Total Net Position                                                     (5,141,514)       (5,208,738)

Total Liabilities and Net Position                                $     3,900,567    $   3,910,291

The accompanying notes are an integral part of these financial statements.




                                                41
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Net Cost
For the Years Ended September 30, 2007 and 2006
(in thousands)

                                                                   2007             2006



Program Costs
     Administrative Expenses (Note 7)                        $         15,653   $       18,422
     Pension Expense (Note 8)                                         429,837        1,050,791
Total Program Costs                                                   445,490        1,069,213

Less: Earned Revenues
     Interest Earned from GAS Securities                              159,235         162,688
     Employee Contributions                                               577             590
Net Cost of Operations                                       $        285,678   $     905,935

The accompanying notes are an integral part of these financial statements.




                                                42
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidated Statements of Changes in Net Position
For the Years Ended September 30, 2007 and 2006
(in thousands)

                                                                 2007                     2006
                                                              Earmarked                Earmarked



Cumulative Results of Operations

      Net Position - Beginning of Year                    $         (5,208,738)    $       (4,595,727)

      Budgetary Financing Sources
          Appropriations Used                                          352,780               292,800

      Other Financing Sources
           Imputed Financing Sources                                         122                   124

      Total Financing Sources                                          352,902               292,924

      Net Cost of Operations                                          (285,678)             (905,935)

      Net Change                                                        67,224              (613,011)

      Net Position - End of Year                          $         (5,141,514)    $       (5,208,738)

The accompanying notes are an integral part of these financial statements.




                                                  43
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combined Statements of Budgetary Resources
For the Years Ended September 30, 2007 and 2006
(in thousands)

                                                                 2007                  2006

Budgetary Resources
   Budget Authority
      Appropriations                                     $              903,530    $      4,369,353
   Unobligated Balance - Beginning of Year                                    -             101,069
   Spending Authority from Offsetting Collections                        28,613              27,842
   Recoveries of Prior Year Obligations                                   2,614               2,449
   Temporarily Unavailable Pursuant to Public Law                       (34,047)         (3,666,340)
   Total Budgetary Resources                             $              900,710    $        834,373

Status of Budgetary Resources
    Obligations Incurred                                 $              900,634    $          834,373
    Unobligated Balances Available                                           76                     -
    Total Status of Budgetary Resources                  $              900,710    $          834,373

Relationship of Obligations to Outlays
    Obligated Balance, Net - Beginning of Year           $               61,266    $           59,965
    Obligations Incurred                                                900,634               834,373
    Recoveries of Prior Year Obligations                                 (2,614)               (2,449)
    Obligated Balance, Net - End of Year                                (59,082)              (61,266)

    Outlays
     Disbursements                                                      900,204               830,623
     Collections                                                        (28,613)              (27,842)
     Total Outlays                                                      871,591               802,781
    Less: Offsetting Receipts                                           197,970               204,392
    Net Outlays                                          $              673,621    $          598,389

The accompanying notes are an integral part of these financial statements.




                                                 44
Department of the Treasury
Departmental Offices
Office of D.C. Pensions

                                Notes to Financial Statements

                                     September 30, 2007


     1) Reporting Entity
        Under provisions in Title XI of the Balanced Budget Act of 1997, as amended (the Act),
        the Secretary of the Treasury (the Secretary) assumed certain responsibilities for a
        specific population of annuitants under the following District of Columbia (District)
        retirement plans: the Police Officers’ and Firefighters’ Retirement Plan, the Teachers’
        Retirement Plan and the Judges’ Retirement Plan. Specifically, the Secretary is
        responsible for administering the retirement benefits earned by District teachers, police
        officers and firefighters based upon service accrued prior to July 1, 1997, and retirement
        benefits earned by District judges, regardless of when service accrued.

        The Secretary’s responsibilities include: (1) making accurate and timely benefit
        payments; (2) investing fund assets; and (3) funding pension benefits. To carry out these
        responsibilities, Treasury’s Office of D.C. Pensions (the Office) engages in a wide range
        of legal, policy and operational activities in the areas of benefits administration,
        information technology, financial management and administration. The Office
        coordinates with many District entities and stakeholders to administer its responsibilities.

        The Office reports to the Deputy Assistant Secretary for Human Resources and Chief
        Human Capital Officer (DASHR). The DASHR reports to the Assistant Secretary for
        Management and Chief Financial Officer (ASM/CFO). ASM/CFO reports through the
        Deputy Secretary to the Secretary of the Treasury.

        a. District of Columbia Teachers, Police Officers, and Firefighters Federal Pension
           Fund (FY 2007 and FY 2006)
        Pursuant to the District of Columbia Retirement Protection Improvement Act of 2004,
        Pub. L. 108-489, Treasury established the District of Columbia Teachers, Police Officers,
        and Firefighters Federal Pension Fund (the D.C. Federal Pension Fund – 20X5511).
        Effective October 1, 2004, the assets and liabilities of the District of Columbia Federal
        Pension Liability Trust Fund (the Trust Fund - 20X8230) and the Federal Supplemental
        District of Columbia Pension Fund (the Supplemental Fund – 20X5500) were transferred
        to the D.C. Federal Pension Fund. The D.C. Federal Pension Fund is used for the
        accumulation of funds to finance obligations of the Federal Government for benefits and
        necessary administrative expenses for the Police Officers’ and Firefighters’, and
        Teachers’ Retirement Plans under the provisions of the Act. The D.C. Federal Pension
        Fund consists of the following:




                                               45
   Amounts deposited from the proceeds of assets transferred from the Trust Fund and
    the Supplemental Fund, which included the proceeds of assets transferred to Treasury
    from the District of Columbia Retirement Board (DCRB) pursuant to the Act
   Amounts deposited from the General Fund of the Treasury
   Income earned on the investments held in the D.C. Federal Pension Fund
   Reimbursement and receivables from the D.C. Government for the District’s
    estimated share of benefits paid from the D.C. Federal Pension Fund
The portion of the D.C. Federal Pension Fund that is not needed to meet the level of
current federal benefit payments, refunds, and net administrative expenses is
invested in non-marketable Government Account Series (GAS) securities issued by the
Treasury’s Bureau of the Public Debt (BPD). Investments are made in securities with
maturities suitable to the needs of the D.C. Federal Pension Fund.
By the end of each fiscal year, the Act requires the Secretary to pay into the D.C. Federal
Pension Fund (from the General Fund of the Treasury) an annual amortization amount.
The annual amortization amount, as determined by an enrolled actuary, is the amount
necessary to amortize the original unfunded liabilities of the retirement programs
assumed by the Federal Government over 30 years, the net experience gains or
losses over 10 years, and any other changes in actuarial liability over 20 years. The
amount paid into the D.C. Federal Pension Fund during FY 2007 and FY 2006 were
$345.4 million and $285.4 million, respectively.

b. District of Columbia Judicial Retirement and Survivors Annuity Fund
   (FY 2007 and FY 2006)
Pursuant to the Act, Treasury established the District of Columbia Judicial Retirement
and Survivors Annuity Fund (the Judicial Retirement Fund – 20X8212).
The Judicial Retirement Fund is used for the accumulation of funds to finance obligations
of the Federal Government for benefits and necessary administrative expenses of the
Judges’ Plan under the provisions of the Act.
The Judicial Retirement Fund consists of the following:
   Amounts deposited from the proceeds of assets transferred to Treasury from the
    District of Columbia Retirement Board (DCRB) pursuant to the Act
   Amounts deposited from the General Fund of the Treasury
   Income earned on the investments held in the Judicial Retirement Fund
   Employee contributions to the Judicial Retirement Fund
The portion of the Fund that is not needed to meet the level of current benefit payments,
refunds and administrative expenses is invested in GAS securities. Investments are made
in securities with maturities suitable to the needs of the Judicial Retirement Fund.



                                      46
   By the end of each fiscal year, the Act requires the Secretary to pay into the Judicial
   Retirement Fund (from the General Fund of the Treasury) an amount equal to the normal
   cost for the year, an annual amortization amount and the covered administrative expenses
   for the year. The annual amortization amount, as determined by an enrolled actuary, is
   the amount necessary to amortize the original unfunded liability of the retirement
   program assumed by the Federal government over 30 years, the net experience gains or
   losses over 10 years, and any other changes in actuarial liability over 20 years. The
   annual payment to the Judicial Retirement Fund also includes an amount necessary to
   fund the normal cost of the retirement program not covered by employee contributions.
   The amounts paid into the Judicial Retirement Fund during FY 2007 and FY 2006 were
   $7.4 million each year.


2) Summary of Significant Accounting Policies
   a. Basis of Accounting and Presentation
   The Office’s financial statements consist of the Consolidated Balance Sheets, the
   Consolidated Statements of Net Cost and Changes in Net Position, and the Combined
   Statements of Budgetary Resources, all of which are prescribed by Office of
   Management and Budget (OMB) Circular A-136, Financial Reporting Requirements.
   The financial statements have been prepared from the accounting records of the Office in
   conformity with accounting principles generally accepted in the United States of
   America. Accounting principles generally accepted in the United States of America for
   federal entities are prescribed by the Federal Accounting Standards Advisory Board
   (FASAB), which is designated the official accounting standards setting body of the
   Federal Government by the American Institute of Certified Public Accountants. The
   statements are different from the financial reports, also prepared by the Office, pursuant
   to OMB directives that are used to monitor and control the Office’s use of budgetary
   resources.
   In the year ended September 30, 2007, OMB changed the required reconciliation of net
   cost to budgetary resources from the separately presented Statement of Financing (SOF)
   to a note disclosure. See Note 9 for the new presentation.

   b. Fund Balance with Treasury
   Fund balance with Treasury represents appropriated funds remaining as of fiscal year-end
   from which the Office is authorized to make expenditures and pay liabilities resulting
   from operational activity, except as restricted by law.

   c. Investments
   Pursuant to the Act and Section 130 of Division A of Pub. L. 105-277 (1998), the
   Secretary invests the portions of the D.C. Federal Pension Fund and the Judicial
   Retirement Fund that are not necessary to meet current obligations, in market-based
   (MK) GAS securities — non-marketable Treasury securities that mirror the prices of
   marketable securities with similar terms, issued and redeemed by BPD. Amounts needed



                                         47
to meet current obligations are invested in overnight non-marketable par value GAS
securities, redeemed at face value plus accrued interest.
The Office follows Treasury investment policy guidelines and determines whether the
investments should be made in MK bills, MK notes, or MK bonds. The maturities on
investments range from less than one year to approximately seven years. If amounts held
in cash, overnight securities and maturing securities are inadequate to meet required
outlays, investments would be selected for redemption based on a review of the
advantages of each of the alternatives and an assessment of the appropriateness of the
securities in the portfolio under current investment policy. Investments are valued at
cost, adjusted for unamortized premiums and discounts, if applicable. The premiums and
discounts are recognized as adjustments to interest income, utilizing the effective interest
method.

d. Advances and Prepayments
The carrying amount of advances and prepayments to the Department of the Treasury’s
Working Capital Fund approximate fair value as they represent the amounts expected to
be paid.

e. Software-In-Development
Software-in-development consists of independent contractor costs incurred in FY 2007 to
develop Release 5 of a pension/payroll system to support the Police Officers’ and
Firefighters’, and Teachers’ Retirement Plans.

f. ADP Software – Net
ADP Software – Net represents the pension benefit and payroll software purchased and
independent contractor costs incurred in FY 2000 – FY 2007 to develop a pension/payroll
system to meet Treasury’s and D.C.’s needs (net of accumulated amortization).
Components of this software that calculate benefit payments for the judges and for a
portion of the teachers, police officers and firefighters were placed in service during
FY 2003. An additional component of the pension/payroll system for the remaining
population of the teachers, police officers and firefighters was placed in service during
FY 2005. Another component of the pension/payroll system was placed in service during
FY 2007 to implement split benefit requirements for new retirements.
Internal use software is recorded at cost and capitalized in accordance with the following
thresholds:
   Capitalize software acquisitions that exceed $50,000
   Capitalize bulk purchases (a single purchase of like items in the same lot with a unit
    cost greater than $5,000 and less than $50,000) that exceed $500,000
   Capitalize aggregate purchases (multiple purchases of items directly related to a
    specific project and unit cost is less than $50,000) that exceed $500,000




                                       48
Software is amortized using the straight-line method over an estimated useful life of five
years, with six months amortization taken in the first and last year.

g. Equipment – Net
Equipment – Net represents computer hardware purchases (net of accumulated
depreciation) placed in service and used to run ADP Software and operation of the
pension/payroll system. Equipment is recorded at cost and capitalized in accordance with
the following thresholds:

•   Capitalize equipment acquisitions that exceed $50,000

•   Capitalize bulk purchases (a single purchase of like items in the same lot with a unit
    cost greater than $5,000 and less than $50,000) that exceed $500,000

•   Capitalize aggregate purchases (multiple purchases of items directly related to a
    specific project and unit cost is less than $50,000) that exceed $500,000
Equipment is depreciated using the straight-line method over an estimated useful life of
five years, with six months depreciation taken in the first and last year.

h. Accounts Receivable
Accounts receivable consist of: (a) amounts due from the D.C. Government for the
District’s estimated share of benefits paid by the Office (b) amounts due from the
D.C. Government for the District’s estimated share of refunds paid by the Office,
(c) employee retirement contributions withheld from judges’ salaries not yet transferred
from the General Services Administration to the Judicial Retirement Fund before the end
of each fiscal year, and (d) amounts due from annuitants and survivors as the result of
benefit overpayments.

i. Accrued Pension Benefits Payable
Accrued pension benefits payable pertains, for the most part, to retirement benefits to
which the recipients became entitled during the reporting period, but which, by law, are
paid on the first business day of the subsequent period. This accrual may consist of
amounts for refund claims for which processing was not completed during the reporting
period, but will be paid in the subsequent period.

j. Actuarial Pension Liability
The actuarial cost method used to determine costs for the Police Officers’ and
Firefighters’ Retirement Plan, Teachers’ Retirement Plan, and Judges’ Retirement Plan is
the Aggregate Entry Age Normal Cost Method. Under this funding method, the normal
cost is a level percent of covered salary, which, along with the member contributions
(under the Judges’ Plan only), will pay for projected benefits at retirement for the active
plan participants. The level percent developed is called the normal cost rate and the
product of that rate and payroll is the normal cost.




                                       49
The actuarial accrued liability is that portion of the present value of projected benefits
that will not be paid by future normal costs or member contributions. The difference
between this liability and the funds accumulated at the same date is referred to as the
unfunded actuarial pension liability. The actuarial pension liability is based upon
assumptions made by Treasury. The assumptions used to calculate the pension liability
as of October 1, 2007, were an annual rate of investment return of 6% based on the
securities held in the Judicial Retirement Fund, an annual rate of investment of 4.7% in
FY 2008 based on securities held in the D.C. Federal Pension Fund, gradually increasing
to 6% by FY 2013; an annual inflation and cost-of-living adjustment of 3.5%; and salary
increases at an annual rate of 3.5% for judges, 5.5% for teachers, and 6.5% for police
officers and firefighters. The assumptions used to calculate the pension liability as of
October 1, 2006, were an annual rate of investment return of 6% based on the securities
held in the Judicial Retirement Fund, an annual rate of investment of 4.8% in FY 2007
based on securities held in the D.C. Federal Pension Fund, gradually increasing to 6% by
FY 2012; an annual inflation and cost-of-living adjustment of 3.5%; and salary increases
at an annual rate of 3.5% for judges, 5.5% for teachers, and 6.5% for police officers and
firefighters.

k. Appropriations Received and Used
Treasury is required to make annual payments from the General Fund of the Treasury to
the Judicial Retirement Fund and the D.C. Federal Pension Fund to amortize the original
unfunded liabilities assumed by the Federal Government and any subsequent changes in
liabilities over a period of time and to fund the normal cost of the Judicial Retirement
Fund. The appropriations are received into the Office’s appropriation funds and are paid
out to the Judicial Retirement Fund and the D.C. Federal Pension Fund to be invested in
non-marketable Treasury securities. In accordance with Statement of Federal Financial
Accounting Standards (SFFAS) No. 7, the payment from the Office’s appropriation funds
results in an appropriation used, as reported in the accompanying Consolidated
Statements of Changes in Net Position.

l. Treasury Employee Retirement Plans
The D.C. Federal Pension Fund and Judicial Retirement Fund pay salaries and benefits of
Treasury employees who work in the Office as reasonable and necessary expenses
incurred in carrying out the Secretary’s responsibilities under the Act. These salaries and
benefits are split 90% and 10% between the D.C. Federal Pension Fund and the Judicial
Retirement Fund, respectively.
The Office’s employees participate in the Civil Service Retirement System (CSRS)
or the Federal Employees Retirement System (FERS). FERS was established by
Pub. L. 99-335. Pursuant to this law, FERS and Social Security automatically cover most
employees hired after December 31, 1983. Employees hired before January 1, 1984,
elected to either transfer to FERS or remain in CSRS.
Most employees are eligible to contribute to the Thrift Savings Plan (TSP). For
employees participating in FERS, TSP accounts are automatically established and the
D.C. Federal Pension Fund and the Judicial Retirement Fund make mandatory


                                      50
contributions of one percent of the Treasury employees’ base pay to the accounts. In
addition, the Funds make matching contributions, ranging from 1% to 4% of base pay,
for FERS eligible employees who contribute to their TSP accounts. Pursuant to law,
mandatory and matching contributions are not made to the TSP accounts established for
CSRS employees.
FERS employees and certain CSRS reinstatement employees participate in the Social
Security program. The D.C. Federal Pension Fund and Judicial Retirement Fund remit
the employer’s share of the required contributions for eligible employees.
The D.C. Federal Pension Fund and Judicial Retirement Fund do not report information
pertaining to the CSRS and FERS retirement plans covering Treasury employees. The
U.S. Office of Personnel Management is responsible for reporting amounts such as plan
assets, accumulated plan benefits, and related unfunded liabilities, if any.

m. President’s Budget
The Budget of the United States (also known as the President's Budget), with actual
numbers for FY 2007, was not published at the time that these financial statements were
issued. The President's Budget for FY 2009, which includes the Office’s budget within
the Other Independent Agencies’ budget appendix, is expected to be published in January
or February 2008. It will be available from the United States Government Printing
Office. The FY 2006 Statement of Budgetary Resources (SBR) was reconciled to the
Program and Financing (P & F) Schedules within the President’s Budget for FY 2008 and
there were no differences for budgetary resources and status of budgetary resources.
Earnings on investments in U.S. securities, federal (as reported in the annual President’s
Budget) consists of interest collected from GAS securities less premiums and interest
purchased. Interest earned from GAS Securities (as reported in the financial statements)
consists of interest earned from GAS securities and the amortization of premiums and
discounts.

n. Earmarked Funds

Funding Sources

All proceeds received and deposited by the Office of D.C. Pensions are earmarked for the
purpose of providing annuity payments for retired District of Columbia teachers, police
officers and firefighters for services earned prior to July 1, 1997 and for retirement
benefits earned by District of Columbia judges, regardless of when services were earned.

Funding for the Judicial Fund is authorized by 111 Stat. 757, Sec. 11251, P.L. 105-33 as
amended by 112 Stat. 2681-534, Sec. 804(a)(4), P.L. 105-277.

Funding for the Federal Pension Fund is authorized by 118 Stat. 3967, Sec. 11084(a),
P.L. 108-149.




                                      51
   Sources of revenue or other financing sources for the years ended September 30, 2007
   and 2006 were annual appropriations, employee contributions, and interest earnings from
   investments.

   Intra-governmental Investments in Treasury Securities

   The Federal Government does not set aside assets to pay future benefits or other
   expenditures associated with earmarked funds. The cash receipts collected from the
   public for an earmarked fund are deposited in the U.S. Treasury, which uses the cash for
   general Government purposes. Treasury securities are issued to the Office of D.C.
   Pensions as evidence of its receipts. Treasury securities are an asset to the Office of D.C.
   Pensions and a liability to the U.S. Treasury. Because the Office of D.C. Pensions and
   the U.S. Treasury are both parts of the Government, these assets and liabilities offset each
   other from the standpoint of the Government as a whole. For this reason, they do not
   represent an asset or a liability in the U.S. Government-wide financial statements.

   Treasury securities provide the Office of D.C. Pensions with authority to draw upon the
   U.S. Treasury to make future benefit payments or other expenditures. When the Office
   of D.C. Pensions requires redemption of these securities to make expenditures, the
   Government finances those expenditures out of accumulated cash balances, by raising
   taxes or other receipts, by borrowing from the public or repaying less debt, or by
   curtailing other expenditures. This is the same way that the Government finances all
   other expenditures.
   o.     Reclassifications

   Certain 2006 balances have been reclassified to conform to the 2007 presentation. Other
   expenses not requiring budgetary resources were reclassified from other public expenses
   to public contractual services on Note 7 and on the Administrative Expenses
   Supplemental Schedule.


3) Fund Balance with Treasury
   Fund balance with Treasury and the status of Fund balance with Treasury as of
   September 30, 2007 and 2006, consisted of the following (in thousands):

                                                                         2007              2006
        Fund balances:
          Trust funds                                            $             15              15
          Special funds *                                                     239             240
        Total fund balance with Treasury                         $            254             255
        * OMB Circular A-11 defines special funds as a Federal fund account for receipts
          earmarked for specific purposes and the expenditure of these receipts.




                                                  52
                                                                     2007                2006
   Status of fund balance with Treasury
     Obligated balance not yet disbursed                                    254              255
   Total                                                   $                254              255



4) Investments in GAS Securities - Net
   Investments in GAS securities – net as of September 30, 2007 and 2006 consisted of the
   following (in thousands):

                                                                    2007

                                                      Unamortized
                                                       Premium,       Investments       Market
                                           Cost           Net             Net           Value
     Intragovernmental Securities
        Non-marketable par value      $     261,820          —           261,820           261,820
        Non-marketable market-based       3,502,594       56,901       3,559,495         3,574,715

                  Total               $   3,764,414       56,901       3,821,315         3,836,535


                                                                    2006
                                                      Unamortized
                                                       Premium,        Investments      Market
                                            Cost          Net              Net          Value
   Intragovernmental Securities
     Non-marketable par value         $     145,841          —               145,841     145,841
     Non-marketable market-based          3,574,966      100,830           3,675,796   3,638,277
                 Total                $   3,720,807      100,830           3,821,637   3,784,118



   The amortization method utilized by the Office is the effective interest method. The
   market value for notes and bonds is calculated using rates for September 30, 2007 and
   2006, as published in the Treasury Quote Sheets prepared by Treasury’s Office of Market
   Finance. Included in this figure are a net unrealized gain of $15.2 million as of
   September 30, 2007 and a net unrealized loss of $37.5 million as of September 30, 2006.




                                               53
   The amortized cost of non-marketable market-based GAS securities as of
   September 30, 2007 and 2006, by maturity date, are as follows (in thousands):

                                                         2007             2006
   Less than or equal to 1 year                 $        525,580          801,288
   More than 1 year and less than
     or equal to 5 years                                2,495,668       2,479,909
   More than 5 years and less than
     or equal to 10 years                                538,247          394,599
                Total                           $       3,559,495       3,675,796




5) ADP Software - Net
   The components of ADP software – net as of September 30, 2007 and 2006 are as
   follows (in thousands):
                                                         2007             2006
   ADP software                                 $         38,383           30,865
   Accumulated depreciation                              (26,310)         (19,392)
   ADP software – net                           $         12,073           11,473




6) Equipment - Net
   The components of equipment – net as of September 30, 2007 and 2006 are as follows (in
   thousands):
                                                          2007            2006
   ADP hardware                                     $         500             500
   Accumulated depreciation                                  (427)           (349)
   Equipment – net                                  $            73           151




                                        54
7) Administrative Expenses

   Administrative expenses for the years ended September 30, 2007 and 2006 are as follows
   (in thousands):
                                                          2007            2006
   Intragovernmental expenses
      Salaries and related benefits                  $        562             571
      Contractual services                                  2,327           2,814
      Rent                                                    780           1,279
      Other                                                    68              23
           Total intragovernmental expenses          $      3,737           4,687


   Public expenses
     Salaries and related benefits                   $      1,988           1,946
     Contractual services                                   2,872           5,492
     Rent                                                       1               1
     Noncapitalized equipment/software                      7,038           6,286
     Other                                                     17              10
           Total public expenses                     $     11,916          13,735

                Total administrative expenses        $     15,653          18,422



   Included in the administrative expenses are amounts incurred by the D.C. Federal
   Pension Fund and Judicial Retirement Fund for intra-governmental activity totaling
   $3,342 thousand and $395 thousand, respectively, for 2007, and $4,207 thousand and
   $480 thousand, respectively, for 2006.


8) Pension Expense
   Pension expense for the plan years ended September 30, 2007, and 2006, includes the
   following components (in thousands):
                                                         2007            2006
   Normal cost                                       $     4,500           4,700
   Actuarial (gain)/loss during the period                (1,663)        645,988
   Interest on pension liability during the
      period                                             427,000         400,100
   Collective bargaining agreement                           —                 3
                 Total pension expense               $   429,837       1,050,791




                                                55
Federal Benefit Payments
Federal pension benefits paid during the plan years were $496.5 million and $7.2 million
from the D.C. Federal Pension Fund and Judicial Retirement Fund, respectively, for
2007, and $487.6 million and $6.6 million, respectively, for 2006. For 2007,
approximately $0.9 million represents contribution refunds to plan participants of the
D.C. Federal Pension Fund. For 2006, approximately $0.7 million represents
contribution refunds to plan participants of the D.C. Federal Pension Fund. For FY 2007,
there was an actuarial loss in the D.C. Federal Pension Fund due to lowering the
investment rate assumption. This was offset by actuarial gains in both funds due to plan
experience, which resulted in a net actuarial gain in the two funds of $1.7 million. For
FY 2006, the actuarial loss of $646.0 million was primarily due to the increase in the
actuarial cost-of-living assumption in the two funds.

Collective Bargaining Agreement (Teachers)
In July 2006, the District of Columbia teachers signed a new labor agreement, which
provided for pay raises retroactive to October 2005. Implementation required adjusting
annuities for teachers who retired after October 2005, making retroactive payments to
impacted annuitants, and if an impacted annuitant was deceased, making payments to
beneficiaries and/or estates. These adjustments and retroactive payments were processed
on December 1, 2006.

Collective Bargaining Agreement (Police Officers)
On June 7, 2005, the D.C. Council approved annual pay increases retroactive to
October 1, 2003, for active police officers as contained in a collective bargaining
agreement. As a result, the annuities for approximately 130 police officers who retired
after October 1, 2003, had to be recalculated to account for changes in the retirees’ final
average earnings. In addition, retroactive benefits were also calculated. The Office
completed the calculation effort in November 2005.

Beneficiaries and estates of deceased officers who were eligible for the increase also
received retroactive payments. These payments were processed between July and
September 2006 as the individuals were identified and located.




                                       56
9) Reconciliation of Net Cost of Operations to Budget
   The Reconciliation of Net Cost of Operations to Budget explains the difference between
   the budgetary net obligations and the proprietary net cost of operations. As of
   September 30, 2007, and 2006, the Reconciliation of Net Cost of Operations to Budget
   consisted of the following (in thousands):


                                                                                              2007            2006

   Budgetary Resources Obligated
         Obligations Incurred                                                             $    900,634    $    834,373
         Less: Spending Authority from Offsetting Collections and Adjustments                   31,227          30,291
         Obligations Net of Offsetting Collections and Recoveries                              869,407         804,082
         Less: Offsetting Receipts                                                             197,970         204,392
         Net Obligations                                                                       671,437         599,690
         Imputed Financing from Costs Absorbed by Others                                           122             124
         Total Resources Used to Finance Activities                                            671,559         599,814
   Resources Used to Finance Items Not Part of the Net Cost of Operations
         Change in Budgetary Resources Obligated for Goods, Services and
           Benefits Ordered but not yet Provided                                                  (867)         (1,110)
         Resources that Fund Expenses Recognized in Prior Periods                               79,347             906
         Resources that Finance the Acquisition of Assets or Liquidation of Liabilities          4,169           5,109
         Other Resources or Adjustments to Net Obligated Resources that do not
           Affect Net Cost of Operations                                                       352,780         292,800
   Total Resources Used to Finance Items not part of the Net Cost of Operations                435,429         297,705
   Total Resources Used to Finance Net Cost of Operations                                      236,130         302,109
   Components Requiring or Generating Resources in Future Periods
         Increase in Exchange Revenue Receivable from the Public                                     1              20
         Future Funded Expenses                                                                  4,393         556,466
   Total Components of Net Cost of Operations that will Require or Generate
    Resources in Future Periods                                                                  4,394         556,486
   Components not Requiring or Generating Resources
         Depreciation and Amortization                                                           8,782          29,613
         Other                                                                                  36,372          17,727
   Total Components of Net Cost Operations that will not Require or Generate
    Resources in Future Periods                                                                 45,154          47,340
   Total Components of Net Cost Operations that will not Require or Generate
    Resources in Current Periods                                                                49,548         603,826
   Net Cost of Operations                                                                 $    285,678    $    905,935




                                                        57
(This page left intentionally blank.)




                58
PART 4

  SUPPLEMENTARY
    SCHEDULES
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Balance Sheets
As of September 30, 2007 and 2006
(in thousands)
                                                                                2007                                               2006
                                                             DC Judicial                                       DC Judicial
                                                             Retirement                       Consolidated     Retirement                       Consolidated
                                                            and Survivors    DC Federal       DC Pension      and Survivors    DC Federal       DC Pension
                                                            Annuity Fund    Pension Fund      Funds Total     Annuity Fund    Pension Fund      Funds Total

Assets
      Entity Assets
            Intra-Governmental Assets
                  Fund Balance with Treasury                $         15              239             254     $         15              240               255
                  Investments in GAS Securities, Net             120,209        3,701,106       3,821,315          113,858        3,707,779         3,821,637
                  Interest Receivable from GAS Securities          1,430           32,693          34,123            1,399           38,621            40,020
                  Advances to Others                                    7              65              72                4               36                40
            Accounts Receivable, Net                                 -             30,860          30,860                1           31,568            31,569
            Software-In-Development                                    59           1,738           1,797               75            5,071             5,146
            ADP Software, Net                                        235           11,838          12,073              666           10,807            11,473
            Equipment, Net                                              7              66              73               15              136               151
Total Assets                                                $    121,962    $   3,778,605     $ 3,900,567     $    116,033    $   3,794,258     $   3,910,291

Liabilities
       Liabilities Covered By Budgetary Resources
              Intra-Governmental
                    Accounts Payable                        $          3               29              32     $         23               45                68
                    Accrued Payroll and Benefits                       2               15              17                2               14                16
              Accounts Payable                                        77            4,416           4,493               75            6,692             6,767
              Accrued Pension Benefits Payable                       601           44,695          45,296              587           43,701            44,288
              Actuarial Pension Liability (Note 2j)              114,337        3,565,150       3,679,487          107,880        3,537,560         3,645,440
              Accrued Payroll and Benefits                            20              174             194               18              161               179
       Total Liabilities Covered By Budgetary Resources          115,040        3,614,479       3,729,519          108,585        3,588,173         3,696,758

      Liabilities Not Covered By Budgetary Resources
             Actuarial Pension Liability                          35,769        5,276,793       5,312,562           37,832        5,384,439         5,422,271
Total Liabilities                                                150,809        8,891,272       9,042,081          146,417        8,972,612         9,119,029

Net Position
      Cumulative Results of Operations - Earmarked               (28,847)       (5,112,667)     (5,141,514)        (30,384)       (5,178,354)       (5,208,738)
Total Net Position                                               (28,847)       (5,112,667)     (5,141,514)        (30,384)       (5,178,354)       (5,208,738)

Total Liabilities and Net Position                          $    121,962    $   3,778,605     $ 3,900,567     $    116,033    $   3,794,258     $   3,910,291




                                                                                   61
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Net Cost
For the Years Ended September 30, 2007 and 2006
(in thousands)
                                                                    2007                                               2006
                                                DC Judicial                                         DC Judicial
                                                Retirement                          Consolidated    Retirement                     Consolidated
                                               and Survivors     DC Federal         DC Pension     and Survivors    DC Federal     DC Pension
                                               Annuity Fund     Pension Fund        Funds Total    Annuity Fund    Pension Fund    Funds Total
Program Costs
     Administrative Expenses               $            1,092           14,561            15,653   $      1,185           17,237          18,422
     Pension Expense                                   11,558          418,279           429,837         16,200        1,034,591       1,050,791
Total Program Costs                                    12,650          432,840           445,490         17,385        1,051,828       1,069,213

Less: Earned Revenues
     Interest Earned from GAS Securities                6,218          153,017           159,235          5,918         156,770         162,688
     Employee Contributions                               577                -               577            590               -             590
Net Cost of Operations                     $            5,855   $      279,823      $    285,678   $     10,877    $    895,058    $    905,935




                                                                               62
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Statements of Changes in Net Position
For the Years Ended September 30, 2007 and 2006
(in thousands)
                                                                       2007                                               2006
                                                   DC Judicial                                        DC Judicial
                                                   Retirement                        Consolidated     Retirement                       Consolidated
                                                  and Survivors      DC Federal      DC Pension      and Survivors     DC Federal      DC Pension
                                                  Annuity Fund      Pension Fund     Funds Total     Annuity Fund     Pension Fund     Funds Total

Cumulative Results of Operations

     Net Position - Beginning of Year            $      (30,384)       (5,178,354)     (5,208,738)   $     (26,919)      (4,568,808)      (4,595,727)

     Budgetary Financing Sources
         Appropriations Used                              7,380           345,400         352,780            7,400          285,400         292,800

     Other Financing Sources
          Imputed Financing Sources                          12               110             122               12               112            124

     Total Financing Sources                              7,392           345,510         352,902            7,412          285,512         292,924

     Net Cost of Operations                               (5,855)        (279,823)       (285,678)         (10,877)        (895,058)        (905,935)

     Net Change                                           1,537            65,687          67,224           (3,465)        (609,546)        (613,011)

     Net Position - End of Year                  $      (28,847)       (5,112,667)     (5,141,514)   $     (30,384)      (5,178,354)      (5,208,738)




                                                                              63
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Combining Statements of Budgetary Resources
For the Years Ended September 30, 2007 and 2006
(in thousands)
                                                                         2007                                            2006
                                                     DC Judicial                                      DC Judicial
                                                     Retirement                        Combined       Retirement                        Combined
                                                    and Survivors     DC Federal      DC Pension     and Survivors    DC Federal       DC Pension
                                                    Annuity Fund     Pension Fund     Funds Total    Annuity Fund    Pension Fund      Funds Total

Budgetary Resources
   Budget Authority
      Appropriations                                $      21,647          881,883        903,530    $     21,432         4,347,921       4,369,353
   Unobligated Balance - Beginning of Year                      -                -              -         101,069                 -         101,069
   Spending Authority from Offsetting Collections               2           28,611         28,613              25            27,817          27,842
   Recoveries of Prior Year Obligations                        33            2,581          2,614              49             2,400           2,449
   Temporarily Unavailable Pursuant to Public Law          (6,457)         (27,590)       (34,047)       (107,880)       (3,558,460)     (3,666,340)
   Total Budgetary Resources                        $      15,225    $     885,485    $   900,710    $     14,695    $      819,678    $    834,373

Status of Budgetary Resources
    Obligations Incurred                            $      15,224          885,410        900,634    $     14,695          819,678          834,373
    Unobligated Balances Available                              1               75             76               -                -                -
    Total Status of Budgetary Resources             $      15,225    $     885,485    $   900,710    $     14,695    $     819,678     $    834,373

Relationship of Obligations to Outlays
    Obligated Balance, Net - Beginning of Year      $       1,471           59,795         61,266    $      1,653           58,312           59,965
    Obligations Incurred                                   15,224          885,410        900,634          14,695          819,678          834,373
    Recoveries of Prior Year Obligations                      (33)          (2,581)        (2,614)            (49)          (2,400)          (2,449)
    Obligated Balance, Net - End of Year                   (1,488)         (57,594)       (59,082)         (1,471)         (59,795)         (61,266)

    Outlays
     Disbursements                                         15,174          885,030        900,204          14,828          815,795          830,623
     Collections                                               (2)         (28,611)       (28,613)            (25)         (27,817)         (27,842)
     Total Outlays                                         15,172          856,419        871,591          14,803          787,978          802,781
    Less: Offsetting Receipts                               6,887          191,083        197,970           6,632          197,760          204,392
    Net Outlays                                     $       8,285    $     665,336    $   673,621    $      8,171    $     590,218     $    598,389




                                                                                64
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Consolidating Intra-governmental Balances
As of and for the Years Ended September 30, 2007 and 2006
(in thousands)
                                                                                                  2007                                                2006
                                                                             D.C. Judicial                                       D.C. Judicial
                                                                              Retirement     D.C. Federal     Consolidated        Retirement     D.C. Federal   Consolidated
                                                                             and Survivors     Pension        D.C. Pension       and Survivors     Pension      D.C. Pension
Department           Intra-governmental balance description                  Annuity Fund       Fund          Funds Total        Annuity Fund       Fund        Funds Total
             Assets
Treasury     Fund Balance with Treasury                                  $            15             239              254    $            15             240            255
Treasury     Investments in GAS securities, net                                  120,209       3,701,106        3,821,315            113,858       3,707,779      3,821,637
Treasury     Interest receivable from GAS securities                               1,430          32,693           34,123              1,399          38,621         40,020
Treasury     Advances to Others                                                        7              65               72                  4              36             40

                                  Total intra-governmental assets        $       121,661       3,734,103        3,855,764    $       115,276       3,746,676      3,861,952

             Liabilities
Treasury     Accounts Payable                                            $             3                 26            29    $            23              42             65
GSA          Accounts Payable                                                         —                   3             3                 —                3              3
Gen Fund     Accrued Payroll and Benefits                                             —                   4             4                 —                4              4
OPM          Accrued Payroll and Benefits                                              2                 11            13                  2              10             12

                                  Total intra-governmental liabilities   $             5                 44            49    $            25              59             84
             Revenues
Treasury     Interest earned from GAS Securities                         $          6,218         153,017         159,235    $          5,918        156,770        162,688
OPM          Imputed Financing Sources                                                 12             110             122                  12            112            124

                                  Total intra-governmental revenues      $          6,230         153,127         159,357    $          5,930        156,882        162,812
             Expenses
Treasury     Salaries and related benefits                               $             1               12              13    $             2              16             18
OPM          Salaries and related benefits                                            43              387             430                 44             385            429
Gen Fund     Salaries and related benefits                                            12              107             119                 12             112            124
Treasury     Contractual Services                                                    250            2,077           2,327                290           2,502          2,792
OPM          Contractual Services                                                     —               —               —                    2              20             22
Treasury     Rent                                                                     78              702             780                128           1,151          1,279
Treasury     Other                                                                    11               57              68                  2              21             23

                                  Total intra-governmental expenses      $           395            3,342           3,737    $           480           4,207          4,687




                                                                                             65
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Investments in GAS Securities - Net By Fund
As of September 30, 2007 and 2006
(in thousands)


                                                                                      2007                                                            2006
                                                                        Unamortized                                                     Unamortized
                                                                         Premium             Investments    Market                       Premium             Investments    Market
                                                             Cost          Net                   Net         Value           Cost          Net                   Net         Value
D. C. Judicial Retirement and Survivors Annuity Fund:
Intragovernmental Securities

   Non-marketable Par Value                             $      3,981            -                   3,981      3,981    $      3,676            -                   3,676      3,676

   Non-marketable Market-based                               114,304          1,924              116,228     116,428         108,053          2,129              110,182     110,306


   Total                                                $    118,285          1,924              120,209     120,409    $    111,729          2,129              113,858     113,982

D.C. Federal Pension Fund:
Intragovernmental Securities

   Non-marketable Par Value                             $    257,839            -                257,839     257,839    $    142,165            -                142,165     142,165

   Non-marketable Market-based                              3,388,290        54,977             3,443,267   3,458,287       3,466,913        98,701             3,565,614   3,527,971


   Total                                                $   3,646,129        54,977             3,701,106   3,716,126   $   3,609,078        98,701             3,707,779   3,670,136




                                                                                              66
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Investments in Nonmarketable Market-Based GAS Securities - Net By Fund and Maturity
As of September 30, 2007 and 2006
(in thousands)


                                                                              2007                                              2006

                                                           D.C. Judicial                                     D.C. Judicial
                                                            Retirement     D.C. Federal   Consolidated        Retirement     D.C. Federal   Consolidated
                                                           and Survivors     Pension      D.C. Pension       and Survivors     Pension      D.C. Pension
                                                           Annuity Fund       Fund        Funds Total        Annuity Fund       Fund        Funds Total
Time of Maturity

Less than or equal to 1 year                           $         44,939         480,641        525,580   $             -          801,288        801,288

More than 1 year and less than or equal to 5 years               62,532       2,433,136      2,495,668             96,479       2,383,430      2,479,909

More than 5 years and less than or equal to 10 years               8,757        529,490        538,247             13,703         380,896        394,599

Total                                                  $        116,228       3,443,267      3,559,495   $        110,182       3,565,614      3,675,796




                                                                                 67
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Administrative Expenses - By Fund
For the years ended September 30, 2007 and 2006
(in thousands)


                                                                2007                                              2006
                                             D.C. Judicial                                     D.C. Judicial
                                              Retirement     D.C. Federal   Consolidated        Retirement     D.C. Federal   Consolidated
                                             and Survivors     Pension      D.C. Pension       and Survivors     Pension      D.C. Pension
                                             Annuity Fund       Fund        Funds Total        Annuity Fund       Fund        Funds Total
Intragovernmental Expenses
   Salaries and Related Benefits         $             56            506             562   $             58            513            571
   Contractual Services                               250          2,077           2,327                292          2,522          2,814
   Rent                                                78            702             780                128          1,151          1,279
   Other                                               11             57              68                  2             21             23
      Total intragovernmental expenses   $            395          3,342           3,737   $            480          4,207          4,687

Public Expenses
  Salaries and Related Benefits          $            201          1,787           1,988   $            203          1,743          1,946
  Contractual Services                                  39         2,833           2,872                 49          5,443          5,492
  Rent                                                -                1               1                -                1              1
  Noncapitalized Equipment/Software                   455          6,583           7,038                453          5,833          6,286
  Other                                                  2            15              17                -               10             10
      Total public expenses              $            697         11,219          11,916   $            705         13,030         13,735


      Total administrative expenses      $          1,092         14,561          15,653   $           1,185        17,237         18,422




                                                                       68
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Pension Expense - By Fund
For the Years Ended September 30, 2007 and 2006
(in thousands)


                                                                          2007                                                  2006

                                                      D.C. Judicial                                          D.C. Judicial
                                                       Retirement      D.C. Federal      Consolidated         Retirement     D.C. Federal      Consolidated
                                                      and Survivors      Pension         D.C. Pension        and Survivors     Pension         D.C. Pension
                                                      Annuity Fund        Fund           Funds Total         Annuity Fund       Fund           Funds Total

Normal Cost                                       $           4,500               -             4,500    $           4,700             -              4,700
Actuarial (Gains) Losses During the Period                   (1,542)             (121)         (1,663)               3,500        642,488           645,988
Interest on Pension Liability During the Period               8,600         418,400           427,000                8,000        392,100           400,100
Collective Bargaining Adjustment                                -                 -               -                    -                   3              3

Total Pension Expense                             $         11,558          418,279           429,837    $         16,200       1,034,591         1,050,791




                                                                             69
Department of the Treasury
Departmental Offices
Office of D.C. Pensions
Reconciliation of Net Cost of Operations to Budget
For the Years Ended September 30, 2007 and 2006
(in thousands)
                                                                                                                   2007                                                2006
                                                                                            DC Judicial                                             DC Judicial
                                                                                            Retirement                             Consolidated     Retirement                         Consolidated
                                                                                           and Survivors         DC Federal        DC Pension      and Survivors      DC Federal       DC Pension
                                                                                           Annuity Fund         Pension Fund       Funds Total     Annuity Fund      Pension Fund      Funds Total
Budgetary Resources Obligated
      Obligations Incurred                                                             $           15,224             885,410           900,634    $      14,695           819,678          834,373
      Less: Spending Authority from Offsetting Collections and Adjustments                             35              31,192            31,227               74            30,217           30,291
      Obligations Net of Offsetting Collections and Recoveries                                     15,189             854,218           869,407           14,621           789,461          804,082
      Less: Offsetting Receipts                                                                     6,887             191,083           197,970            6,632           197,760          204,392
      Net Obligations                                                                               8,302             663,135           671,437            7,989           591,701          599,690
      Imputed Financing from Costs Absorbed by Others                                                  12                 110               122               12               112              124
      Total Resources Used to Finance Activities                                                    8,314             663,245           671,559            8,001           591,813          599,814
Resources Used to Finance Items Not Part of the Net Cost of Operations
      Change in Budgetary Resources Obligated for Goods, Services and
        Benefits Ordered but not yet Provided                                                          21                (888)             (867)             (368)             (742)         (1,110)
      Resources That Fund Expenses Recognized in Prior Periods                                          -              79,347            79,347                 -               906             906
      Resources that Finance the Acquisition of Assets or Liquidation of Liabilities                    -               4,169             4,169                75             5,034           5,109
      Other Resources or Adjustments to Net Obligated Resources that do not
        Affect Net Cost of Operations                                                               7,380             345,400           352,780             7,400          285,400          292,800
Total Resources used to Finance Items not part of the Net Cost of Operations                        7,401             428,028           435,429             7,107          290,598          297,705
Total Resources Used to Finance Net Cost of Operations                                                913             235,217           236,130               894          301,215          302,109
Components Requiring or Generating Resources in Future Periods
      Increase in Exchange Revenue Receivable from the Public                                           1                     -               1                20                -               20
      Future Funded Expenses                                                                        4,394                    (1)          4,393             9,409          547,057          556,466
Total Components of Net Cost of Operations that will Require or Generate
 Resources in Future Periods                                                                        4,395                    (1)          4,394             9,429          547,057          556,486
Components not Requiring or Generating Resources
      Depreciation and Amortization                                                                   578                 8,204           8,782              594            29,019           29,613
      Other                                                                                           (32)             36,404            36,372               (40)          17,767           17,727
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Future Periods                                                                          546              44,608            45,154              554            46,786           47,340
Total Components of Net Cost Operations that will not Require or Generate
 Resources in Current Periods                                                                       4,941              44,607            49,548            9,983           593,843          603,826
Net Cost of Operations                                                                 $            5,854             279,824           285,678    $      10,877           895,058          905,935




                                                                                                           70
